No. 19In the

Supreme Court of the United States
SHERIFF DONALD E. CRAIG, SGT. TRAVIS PALMER
CURRAN, A.K.A. TRAVIS LEE PALMER, DEP.
FRANK GARY HOLLOWAY, DEP. KEELIE KERGER,
DEP. BILL HIGDON, DEP TODD MUSGRAVE, et. al.,
Petitioners,
v.
JANET TURNER O’KELLEY, INDIVIDUALLY
AND AS PERSONAL REPRESENTATIVE
OF THE ESTATE OF JOHN HARLEY TURNER,
JOHN ALLEN TURNER,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI
Russell A. Britt
Counsel of Record
Phillip E. Friduss
Jacob O’Neal
Hall Booth Smith, P.C.
191 Peachtree Street, N.E., Suite 2900
Atlanta, GA 30303
(404) 954-5000
rbritt@hallboothsmith.com
Counsel for Petitioners
294017

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1. Whether a panel decision decided nine days before
the relevant conduct in question constitutes clearly
established law to deprive government officers of qualified
immunity. See D. C. v. Wesby, 138 S. Ct. 577, 591 (2018)
(“We have not yet decided what precedents—other than
our own—qualify as controlling authority for purposes of
qualified immunity.”).
2. Whether timing constitutes an extraordinary
circumstance as articulated by Harlow v. Fitzgerald,
457 U.S. 800, 818 (1982), such that a police officer may
nonetheless be entitled to qualified immunity despite the
law being clearly established nine days earlier.
3. Whether the Eleventh Circuit erred in holding that
a general principal of law announced in Moore v. Pederson,
806 F.3d 1036 (11th Cir. 2015), firmly established with the
requisite degree of particularity that the officers violated
clearly established law in the particular circumstances
they faced.

ii
PARTIES TO THE PROCEEDING
The parties to the proceeding in the United States
Court of Appeals for the Eleventh Circuit were Petitioners
Travis Palmer Curran, Frank Gary Holloway, Keelie
Kerger, Bill Higdon, and Todd Musgrave.; Respondents
Janet Turner O’Kelley and John Allen Turner; and
Jonathan Salcedo and Rodney Curtis.

iii
RELATED CASES
O'Kelley v. Craig, No. 2:17-CV-00215-RWS, U.S. District
Court for the Northern District of Georgia. Judgment
entered Sept. 27, 2018.
O'Kelley v. Craig, No. 18-14512, U.S. Court of Appeals
for the Eleventh Circuit. Judgment entered July 16, 2019.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
A. Factual Background  . . . . . . . . . . . . . . . . . . . . . . . 4
B. Procedural Background  . . . . . . . . . . . . . . . . . . . . 5
REASONS FOR GRANTING THE PETITION . . . . . 7
I.

The Qualified Immunity Doctrine . . . . . . . . . . . . 7

v
Table of Contents
Page
II. The Court Has Not Determined Whether
A Panel Decision (or Any Judicial Authority
Other Than This Court’s Own) Constitutes
“Clearly Established Law,” and Should
Determine That No Decision Should
Constitute Same Without Complet e
Exhaustion Of The Appeals Process . . . . . . . . . . 8
III. The Court Has Not Yet Defined, And
Lower Courts Have Not Illuminated, What
Constitutes “Extraordinary Circumstances”
For Which An Officer May Be Entitled
To Qualified Immunity, Assuming The
Law Is Clearly Established . . . . . . . . . . . . . . . . .11
IV. There Are Widely Conflicting Decisions In
Circuit Courts On How Long Before The
Underlying Conduct A Case Must Have
Been Decided Such That An Objectively
Reasonable Officer Has Fair Warning Of
The Applicable Clearly Established Law . . . . . 14
V.

The Eleventh Circuit Panel’s Decision
Conflicts with A Decision Of The Eighth
Circuit On The Question Of Whether A
Public Employee’s subjective Knowledge
Of Developments Of Law Is A Factor
In Determining Qualified Immunity . . . . . . . . . 21

vi
Table of Contents
Page
VI. The Eleventh Circuit Panel Decided An
Important Federal Question In Direct
Conflict With Relevant Decisions Of This
Court Because It Applied A General
Pr incipal Of Law To Find “Clea rly
Established” Law In Contravention Of This
Court’s Precedent Mandating That A Case
Must Be Sufficiently Factually Similar To
Put Public Employees On Notice That Their
Particular Actions Are Unconstitutional  . . . . . 24
VII. W hether A Factually Distinct Panel
Decision Decided Only Nine (9) Days
Before A Public Employee’s Conduct
Can Strip The Employee Of Qualified
Immunity Should Be Decided By This
Court, Because The Eleventh Circuit
Panel’s Decision Chills Public Service
By Law Enforcement By Raising The
Specter of Surprise Liability. . . . . . . . . . . . . . . . 30
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

vii
TABLE OF APPENDICES
Page
A ppendi x A — opinion of the
united states court of appeals
for the eleventh circuit,
	filed july 16, 2019 . . . . . . . . . . . . . . . . . . . . . . . . 1a
A ppendi x B — O R D E R of the
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA, ATLANTA DIVISION, FILED
SEPTEMBER 27, 2018 . . . . . . . . . . . . . . . . . . . . . . . . 24
Appendix C — opinion of the UNITED
STAT ES COU RT OF A PPEA LS FOR
T H E ELE V EN T H CIRCU I T, filed
	october 28, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . .  47a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Affiliated Capital Corp. v. City of Houston,
735 F.2d 1555 (5th Cir. 1984) . . . . . . . . . . . . . . . . . . . 18
Anderson v. Creighton,
483 U.S. 635, 107 S. Ct. 3024,
97 L. Ed. 2d 523 (1987) . . . . . . . . . . . . . . . . . . . . passim
Arebaugh v. Dalton,
730 F.2d 970 (4th Cir. 1984) . . . . . . . . . . . . . . . . . . . . 16
Arizona v. California,
460 U.S. 605, 103 S.Ct. 1382,
75 L. Ed. 2d 318 (1983) . . . . . . . . . . . . . . . . . . . . . . . . . 9
Ashcroft v. al-Kidd,
563 U.S. 731, 131 S. Ct. 2074,
179 L. Ed. 2d 1149 (2011)  . . . . . . . . . . . . . . . . . . . . . . 28
Atwater v. City of Lago Vista,
532 U.S. 318, 121 S. Ct. 1536,
149 L. Ed. 2d 549 (2001) . . . . . . . . . . . . . . . . . . . . . . . 31
Barnett v. Hous. Auth. of City of Atlanta,
707 F.2d 1571 (11th Cir. 1983)  . . . . . . . . . . . . . . . . . . 14
Brosseau v. Haugen,
543 U.S. 194, 125 S. Ct. 596,
160 L. Ed. 2d 583 (2004) . . . . . . . . . . . . . . . . . . . . . . . 28

ix
Cited Authorities
Page
Bryan v. United States,
913 F.3d 356 (3d Cir. 2019) . . . . . . . . . . . . . . . . . . 19, 20
City of Columbia v. Omni Outdoor Advert., Inc.,
499 U.S. 365, 111 S. Ct. 1344,
113 L. Ed. 2d 382 (1991) . . . . . . . . . . . . . . . . . . . . . . . 18
Cuyler v. Adams,
449 U.S. 433, 101 S. Ct. 703, 66 L. Ed. 2d 641
(6-3, 1981) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Davis v. Scherer,
468 U.S. 183, 104 S. Ct. 3012,
82 L. Ed. 2d 139 (1984) . . . . . . . . . . . . . . . . . . . . . . . . 31
DiMeglio v. Haines,
45 F.3d 790 (4th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . 13
District of Columbia v. Wesby,
138 S. Ct. 577, 199 L. Ed. 2d 453 (2018) . . . . . . . . . . . 8
Doby v. Hickerson,
120 F.3d 111 (8th Cir. 1997) . . . . . . . . . . . 20, 21, 22, 23
Easter House v. Felder,
852 F.2d 901 (7th Cir.), reh’g granted, judgment
vacated, 861 F.2d 494 (7th Cir. 1988), and on
reh’g, 879 F.2d 1458 (7th Cir. 1989), cert.
granted, judgment vacated, 494 U.S. 1014,
110 S. Ct. 1314, 108 L. Ed. 2d 490 (1990) . . . . . . . . . . 13

x
Cited Authorities
Page
Floyd v. Farrell,
765 F.2d 1 (1st Cir. 1985)  . . . . . . . . . . . . . . . . . . . . . . 12
Garcia by Garcia v. Miera,
817 F.2d 650 (10th Cir. 1987) . . . . . . . . . . . . . . . . . . .  17
Gregoire v. Biddle,
177 F.2d 579 (CA2 1949), cert. denied,
339 U.S. 949, 70 S. Ct. 803, 94 L. Ed. 1363 (1950) . . 30
Harlow v. Fitzgerald,
457 U.S. 800 (1982) . . . . . . . . . . . . . . . . . . . . . . . passim
Hope v. Pelzer,
536 U.S. 730, 122 S. Ct. 2508,
153 L. Ed. 2d 666 (2002) . . . . . . . . . . . . . . . . . . . . . . . 15
In re City of Philadelphia Litig.,
49 F.3d 945 (3d Cir. 1995) . . . . . . . . . . . . . . . . . . . . . . 12
Johnson-El v. Schoemehl,
878 F.2d 1043 (8th Cir. 1989) . . . . . . . . . . . . . . . . . . . 13
Kenyatta v. Moore,
744 F.2d 1179 (5th Cir. 1984)  . . . . . . . . . . . . . . . . . . . 13
Lintz v. Skipski,
25 F.3d 304 (6th Cir. 1994) . . . . . . . . . . . . . . . . . .  15, 16
Losch v. Borough of Parkesburg, Pa.,
736 F.2d 903 (3d Cir. 1984) . . . . . . . . . . . . . . . . . . . . . 13

xi
Cited Authorities
Page
Lugo v. Alvarado,
819 F.2d 5 (1st Cir. 1987)  . . . . . . . . . . . . . . . . . . . . . . 12
Malley v. Briggs,
475 U.S. 335, 106 S. Ct. 1092,
89 L. Ed. 2d 271 (1986) . . . . . . . . . . . . . . . . . . . . . . . . 15
Milonas v. Williams,
692 F.2d 931 (10th Cir. 1982), cert. denied,
460 U.S. 1069, 103 S. Ct. 1524,
75 L. Ed. 2d 947 (1983) . . . . . . . . . . . . . . . . . . . . .  17, 18
Mitchell v. Forsyth,
U.S. 511, 528, 105 S. Ct. 2806,
86 L. Ed. 2d 411 (1985) . . . . . . . . . . . . . . . . . . 24, 25, 31
Moore v. Marketplace Rest., Inc.,
754 F.2d 1336 (7th Cir. 1985) . . . . . . . . . . . . . . . . . . . 13
Moore v. Pederson,
806 F.3d 1036 (11th Cir. 2015)  . . . . . . . . . . . . . . passim
Musacchio v. United States,
136 S. Ct. 709, 193 L. Ed. 2d 639 (2016) . . . . . . . . . . . 9
Pearson v. Callahan,
555 U.S. 223, 129 S. Ct. 808 (2009) . . . . . . . . . . . . . . 28
Pepper v. United States,
562 U.S. 476, 131 S. Ct. 1229,
179 L. Ed. 2d 196 (2011) . . . . . . . . . . . . . . . . . . . . . . . . 9

xii
Cited Authorities
Page
Pierson v. Ray,
386 U.S. 547, 87 S. Ct. 1213,
18 L. Ed. 2d 288 (1967) . . . . . . . . . . . . . . . . . . . . . . . . 15
Preston v. Smith,
750 F.2d 530 (6th Cir. 1984) . . . . . . . . . . . . . . . . . . . . 13
Reichle v. Howards,
566 U.S. 658 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Robinson v. Bibb,
840 F.2d 349 (6th Cir. 1988) . . . . . . . . . . . . . .  13, 16, 17
Saucier v. Katz,
533 U.S. 194, 121 S. Ct. 2151,
150 L. Ed. 2d 272 (2001) . . . . . . . . . . . . . . . . . . . .  27-28
Schlothauer v. Robinson,
757 F.2d 196 (8th Cir. 1985) . . . . . . . . . . . . . . . . . 18, 19
Stanton v. Sims,
571 U.S. 3, 134 S. Ct. 3, 187 L. Ed. 2d 341 (2013) . . 28
Tennessee v. Garner,
471 U.S. 1, 105 S. Ct. 1694, 85 L. Ed.2d 1 (1985) . . .  17
Todd v. United States,
849 F.2d 365 (9th Cir. 1988) . . . . . . . . . . . . . . . . . . . . 13
U.S. v. Houle,
603 F.2d 1297 (8th Cir. 1979) . . . . . . . . . . . . . . . . . . . 19

xiii
Cited Authorities
Page
United States v. Wells,
519 U.S. 482, 117 S. Ct. 921,
137 L. Ed. 2d 107 (1997) . . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Whitted,
541 F.3d 480 (2008) . . . . . . . . . . . . . . . . . . . . . . . . 19, 20
V-1 Oil Co. v.
State of Wyo., Dep’t of Envtl. Quality,
902 F.2d 1482 (10th Cir. 1990) . . . . . . . . . . . . . . . . . . 14
Washington v. Harper,
494 U.S. 210, 110 S. Ct. 1028,
108 L. Ed. 2d 178 (1990) . . . . . . . . . . . . . . . . . . . .  21-22
White v. Pauly,
137 S. Ct. 548, 196 L. Ed. 2d 463 (2017) . . . . . . . . . . 28
Wilson v. Layne,
526 U.S. 603, 119 S. Ct. 1692,
143 L. Ed. 2d 818 (1999) . . . . . . . . . . . . . . . . . . . . . . . 27
Statutes and Other Authorities
U.S. Const., amend. IV  . . . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 5

xiv
Cited Authorities
Page
Fed. R. App. P. 35(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Fed. R. App. P. 35(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Fed. R. App. P. 40(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . .10
Fed. R. App. P. 41(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Fed. R. App. P. 41(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
S. Ct. R. 13(1() . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Fa y e E l k i n s , C o n c e r n s o f R u r a l L a w
Enforcement: What We Heard from the Field,
12 Dispatch 8 (Sep. 2019) . . . . . . . . . . . . . . . . . . . . . . . . 

1
INTRODUCTION
Harley Turner, an armed suspect who was reported
threatening nearby raccoon hunters in the North Georgia
mountains with bodily harm, died after a nighttime
armed standoff with multiple law enforcement officers
deteriorated into gunfire after Turner was hit with a
nonlethal beanbag round.
Upon the officers’ motion to dismiss, the district court
granted them qualified immunity, holding in relevant part
that clearly established law did not foreclose the officers
from performing a Terry-like stop in these circumstances.
Acknowledging an Eleventh Circuit panel decision, see
Moore v. Pederson, 806 F.3d 1036 (11th Cir. 2015), handed
down just nine days before the incident, the district
court nonetheless found that it was too dissimilar and
did not provide fair and clear warning for this tense and
dangerous circumstance.
A panel of the Eleventh Circuit, however, reversed
the district court. Relying exclusively on Moore, the
panel concluded that no reasonable officer would have
understood that a Terry-like stop would have been lawful
in light of the Moore decision reached nine (9) days before
the incident. A petition for rehearing en banc was denied.
Even assuming Moore provides the necessary factual
and material similarity this Court requires, a panel
decision handed down only nine days before the relevant
conduct cannot constitute controlling authority clearly
establishing the law for purposes of qualified immunity.
The mandate in the Moore decision had not even issued,
nor had the appeals process expired, before the Petitioners

2
were held to have violated the law that Moore supposedly
had clearly established. This Court’s intervention is
necessary to resolve this important and open question of
federal law, since only this Court can do so.
The panel’s decision further deepens the chasm
between the circuits that have addressed whether and to
what extent the timing of a pertinent decision qualifies
as an extraordinary circumstance under Harlow. And
without clear guidance from this Court, law enforcement
officers in the rural reaches of the country who are
otherwise acting in good faith can now lose their qualified
immunity simply as a result of the happenstance as to
when the advance sheet of a pertinent decision is released.
This Petition should be granted and the disarray in the
Circuit Courts cleared away.
The final reason warranting this Court’s intervention
is that Moore does not even clearly establish the law under
the circumstances the deputies faced. The panel’s decision
concluding otherwise clearly contravenes this Court’s
recent and repeated directives against framing clearly
established law at a high level of generality. The district
court understood those admonitions and faithfully applied
this Court’s precedents. But the Eleventh Circuit panel
ignored them altogether.
OPINIONS BELOW
The decision of the U.S. Court of Appeals for the
Eleventh Circuit reversing the district court’s grant of
the motion to dismiss is reported at 781 F. App’x 869
and reproduced in the Appendix at 1a. The district
court’s unreported decision granting the deputies

3
qualified immunity is available at 2018 WL 4636638 and
reproduced in the Appendix at 24a. The Eleventh Circuit’s
unreported order denying the petition for rehearing or
in the alternative rehearing en banc is reproduced in the
Appendix at 47a.
JURISDICTION
The Eleventh Circuit issued its order denying the
Deputies’ petition for rehearing or in the alternative
rehearing en banc on October 28, 2019. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const., amend. IV, provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
42 U.S.C. § 1983 provides in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within the

4
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress . . .
STATEMENT OF THE CASE
A. Factual Background
On October 24, 2015, an individual called 911 and
reported that he and some others who were hunting near
Carver Mill Road in Pickens County, Georgia had been
accused of trespassing and threatened with bodily harm.
App.25. Pickens County deputy sheriffs then met the
hunting party on Carver Mill Road and were lead to the
O’Kelley residence, where Harley Turner, his mother,
Janet O’Kelley, and his step-father, Stan O’Kelley, lived.
The deputies arrived outside the O’Kelley property
around 9:00 p.m. that night and spoke with Mr. O’Kelley.
The deputies were then informed by Mr. O’Kelley that
it was his step-son, Harley Turner, who had threatened
the hunters and that Turner was currently armed with a
gun. App.26. So the deputies then sent Mr. O’Kelley to a
neighbor’s house.
Moments later, Harley Turner approached the deputies
with flashlight in hand, agitated, shirtless, and armed with
a pistol strapped across his chest. Refusing to put down
his gun, Turner demanded to know why the deputies were
trespassing. A short while later, a few more deputy sheriffs
arrived, along with two Georgia State Patrol Officers. At
one point in the exchange, Turner unholstered the pistol
and wielded it above his head. App.26

5
The deputies fanned out along the fence line that
encircled the residence while the state patrol officers took
sniper positions with their long rifles. For the next thirty
minutes Turner and the deputies argued—the deputies
requesting Turner to put down the gun and Turner
refusing, pacing back and forth and ordering the deputies
to leave. During this exchange, Turner challenged the
deputies and dared them “to go ahead and shoot” despite
repeated assurances from the deputies that they just
wanted Turner to put down his gun. App.27
Sergeant Curran, one of the back-ups who had arrived
around the time of the state troopers, had crossed over
the fence line to get in a better position, while the other
deputies remained at the fence line. Some time later,
Deputy Kerger, who was unarmed and standing at the
fence line, introduced herself to Turner and pleaded with
him to put down the gun. Although Turner responded that
he did not have a gun, Kerger pointed out that it was still
visibly strapped to his chest. Turner then approached the
fence line, at which point Sergeant Curran discharged his
beanbag rounds, striking Turner and knocking him down.
Turner then opened fire with his pistol, and was killed in
the resulting exchange. App.27
B. Procedural Background
Turner’s mother, Janet O’Kelly, individually and as the
representative of Turner’s estate filed suit in the Northern
District of Georgia naming as defendants Pickens County
Sheriff Donald Craig, Sargent Curran, Deputy Holloway,
Deputy Kerger, Deputy Higdon, and Deputy Musgrave of
the Pickens County Sheriff’s Office. O’Kelley also brought
suit against the state patrol officers Salcedo and Curtis.
O’Kelley alleged claims under 42 U.S.C. § 1983 and state
law against all defendants.

6
O’Kelley’s federal law claims included Fourth
Amendment claims against the deputy sheriffs for
unlawful seizure and excessive force. The district court
granted the deputies’ motion to dismiss on qualified
immunity grounds.
The district court reasoned that arguable probable
cause existed for Turner’s seizure and that the exigency
of the circumstances obviated the need for a warrant.
The district court dismissed Plaintiff’s argument that the
Eleventh Circuit’s recent decision in Moore v. Pederson,
clearly established that the deputies had violated Turner’s
constitutional rights. Recognizing the obvious, and
important, dissimilarities between the cases, the district
court pointed out that the deputies here had responded
to a 911 call made regarding violent threats, while Moore
was a complaint about an argument that “’did not sound
violent.’” More importantly though, Moore did not involve
an individual armed with a gun, nor did anyone appear
to be distressed. Finally, the plaintiff in Moore was
compliant with officers, while Turner refused to cooperate.
Thus, according to the district court, this could not have
provided the deputies with fair and clear warning that
their conduct violated the law established in Moore. See
App.38-39.
On appeal, a panel of the Eleventh Circuit reversed
the district court’s qualified immunity analysis entirely.
The panel determined that that the facts, as alleged in
the Complaint, plausibly alleged that no exigency existed
because it would not have been apparent to any reasonable
officer that Turner presented a danger to himself, the
deputies, or anyone else.

7
Moving to the clearly established prong, the panel
rejected the district court’s careful distinctions of Moore
and in passing held that “Moore, decided on October 15,
2015, [in which] we held that an ‘officer may not conduct
a Terry-like stop in the home in the absence of exigent
circumstances’ . . . clearly established, at the time of the
encounter on October 24, 2015, that a seizure or entry
within a home without a warrant or exigent circumstances
v iolates the Four th A mendment’s prohibition on
unreasonable searches and seizures.” App.8–10.
REASONS FOR GRANTING THE PETITION
I.

The Qualified Immunity Doctrine

The modern doctrine of qualified immunity was born
out of Harlow v. Fitzgerald, wherein this Court held that
“government officials performing discretionary functions”
should generally be “shielded from liability for civil
damages insofar as their conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known.” 457 U.S. 800,
818 (1982). The Harlow Court reasoned that “[r]eliance
on the objective reasonableness of an official’s conduct, as
measured by reference to clearly established law,” would
better address the policy aims underlying the defense—that
is, early disposition of cases where appropriate. Id. Thus,
“[i]f the law at the time was not clearly established, an official
could not reasonably be expected to anticipate subsequent
legal developments, nor could he fairly be said to ‘know’
that the law forbade conduct not previously identified as
unlawful.” Id. But before remanding the case to the district
court to apply this test, the Harlow Court propounded this
qualification: “Nevertheless, if the official pleading the

8
defense claims extraordinary circumstances and can prove
that he neither knew nor should have known of the relevant
legal standard, the defense should be sustained.” Id. The
Supreme Court then reiterated that even in this particular
circumstance “the defense would turn primarily on objective
factors.” Id.
II. The Court Has Not Determined Whether A Panel
Decision (or Any Judicial Authority Other Than
This Court’s Own) Constitutes “Clearly Established
Law,” and Should Determine That No Decision
Should Constitute Same Without Complete
Exhaustion Of The Appeals Process.
Whether any lower court decision, panel or otherwise,
constitutes “clearly established law” for the purposes
of qualified immunity remains an open question of
law, because this Court has never yet decided that any
precedent other than that handed down by the Supreme
Court itself can qualify as controlling authority. See
District of Columbia v. Wesby, 138 S. Ct. 577, 591 n.8,
199 L. Ed. 2d 453 (2018) (citations omitted) (“We have
not yet decided what precedents—other than our own—
qualify as controlling authority for purposes of qualified
immunity. … We express no view on that question here.
Relatedly, our citation to and discussion of various lower
court precedents should not be construed as agreeing or
disagreeing with them, or endorsing a particular reading
of them.”). And while this Court has decided matters
assuming that a Circuit Court’s authority could be a
dispositive source of clearly established law in a particular
case, it has nevertheless done so without deciding outright
that such authority—much less a panel decision short of
an en banc decision of a Court of Appeals—does in fact

9
constitute clearly established law. See, e.g., Reichle v.
Howards, 566 U.S. 658, 665–66 (2012) (assuming without
deciding that Circuit precedent could be a dispositive
source of law).
Critically, when a Circuit Court panel issues a decision
(as is the case here), the appeals process of the case is not
yet exhausted. The panel decision may be reversed or
modified by the full Circuit Court sitting en banc, or by
this Court on further appeal following grant of certiorari.
See, e.g., Fed. R. App. P. 35(a). A panel decision does not
even function as the law of the case in question until the
appeals process is complete or the deadline for further
appeal has passed. It is true that, generally, “‘when a court
decides upon a rule of law, that decision should continue
to govern the same issues in subsequent stages in the
same case.’” Pepper v. United States, 562 U.S. 476, 506,
131 S.Ct. 1229, 179 L.Ed.2d 196 (2011) (quoting Arizona v.
California, 460 U.S. 605, 618, 103 S.Ct. 1382, 75 L.Ed.2d
318 (1983). But the law-of-the-case doctrine is “‘something
of a misnomer’ when used to describe how an appellate
court assess a lower court’s rulings.” Musacchio v. United
States, 136 S. Ct. 709, 716, 193 L. Ed. 2d 639 (2016),
quoting United States v. Wells, 519 U.S. 482, 487, n. 4, 117
S.Ct. 921, 137 L.Ed.2d 107 (1997). “An appellate court›s
function is to revisit matters decided in the trial court.
… [I]t is not bound by [rulings below] under the law-ofthe-case doctrine.” Id.
Here, the Eleventh Circuit panel’s implicit holding
that a panel decision issued only nine (9) days before the
conduct at issue can constitute clearly established law
utterly ignores the fact that the applicable decision—
assuming it is applicable to the facts of the case at bar—

10
may yet be overturned. Indeed, the time for a party to
request rehearing en banc—let alone for issuance of an
en banc opinion—is not yet exhausted at nine (9) days,
because the deadline to file a petition for rehearing en
banc is, at a minimum and unless otherwise shortened or
extended, fourteen (14) days after the issuance of the panel
decision. See Fed. R. App. P. 35(c), Fed R. App. P. 40(a)
(1). Further, the mandate of the Court of Appeals cannot
issue any earlier than seven (7) days after the time to file a
petition for rehearing expires, unless the Court of Appeals
shortens or extends the time; and the mandate becomes
effective only upon issuance. See Fed. R. App. P. 41(b), (c).
Therefore, unless a Court of Appeals alters the deadlines,
the soonest that a panel decision could constitute the law
of the case heard by the panel—and, perhaps, constitute
clearly established law—would be twenty-one (21) days
after the issuance of the panel decision, some twelve (12)
days later than the nine (9) days afforded by the Eleventh
Circuit panel in this matter. The time expands further if a
petition for rehearing en banc is actually filed and denied,
or if a motion for stay of mandate is denied, there being a
further seven (7) days from whenever the order denying
the same is entered. Fed. R. App. P. 41(b). And, even
where the mandate is issued following denial of rehearing
en banc, or after the en banc Court of Appeals actually
issues a decision following rehearing, there still lies the
petition for writ of certiorari to this Court, which must
be filed ninety (90) days from the date of the decision or
denial of rehearing. See S. Ct. R. 13(1).
Where, as here, a court or panel of a court holds
officers to knowledge of a panel decision to constitute
“clearly established law” where the appeals process for
that decision has yet to terminate, it utterly vitiates

11
the Harlow Court’s admonition that “[i]f the law at that
time was not clearly established, an official could not
reasonably be expected to anticipate subsequent legal
developments(.)” Harlow v. Fitzgerald, 457 U.S. 800, 818,
102 S. Ct. 2727, 2738, 73 L. Ed. 2d 396 (1982). Whether
such a decision can constitute “clearly established” law,
even though the decision may yet be reversed or altered
in the appeals process, is an important question of federal
law, undecided, that should be decided by this Court.
III. The Court Has Not Yet Defined, And Lower
Courts Have Not Illuminated, What Constitutes
“Extraordinary Circumstances” For Which An
Officer May Be Entitled To Qualified Immunity,
Assuming The Law Is Clearly Established.
This Court has not determined whether a panel
decision, or any lower court decision regardless of timing,
qualifies as “extraordinary circumstances” for which a
reasonable officer may be entitled to qualified immunity;
and in fact, to date, only one decision from this Court
discusses the “extraordinary circumstances” defense,
and this only in the dissent. In the dissent of Anderson v.
Creighton, Justice Stephens, joined by Justices Brennan
and Marshall, agreed with the Eighth Circuit’s denial
of an officer’s qualified immunity (which decision was
reversed by the majority of this Court) and discussed
Harlow’s “extraordinary circumstances” defense, opining
that the officer could not advance a fact-specific claim that
a reasonable person in his position could have believed
that his particular conduct would not violate rights
“that he concedes are clearly established.” 483 U.S. 635,
648, 107 S. Ct. 3034, 3043, 97 L. Ed. 2d 523 (1987). The
Anderson majority did not address this defense, instead

12
deciding the matter on the issue of whether the lower
court defined the “clearly established” right at issue at too
high a level of generality. See generally id. The Anderson
dissent, contrary to the majority and to the qualified
immunity doctrine propounded in Harlow, argued that
the Harlow formulation of qualified immunity (including
the “extraordinary circumstances” exception) was
inappropriate ab initio for law enforcement officers and
that, in any case, the officer at issue in that matter could
not actually make the showing on the facts of that matter,
without offering any discussion of what would constitute
“extraordinary circumstances,” clearly established law
notwithstanding. Id. at 648.
The Courts of Appeals provide little or no light on
what are “extraordinary circumstances,” in the context
of timing or otherwise. Those decisions that do invoke
Harlow’s language for the most part do not elucidate the
contours of this defense, but rather, by and large, simply
quote the language as either a general pronouncement of
the qualified immunity doctrine, or for some other purpose;
and those that do address the exception leave behind them
a sea of murky waters as to what the “extraordinary
circumstances” defense would require . See, e.g., Lugo
v. Alvarado, 819 F.2d 5, 7, n.2 (1st Cir. 1987) (discovery to
probe extraordinary circumstances should be permitted
as appropriate if the defense claims such circumstances
to exist); Floyd v. Farrell, 765 F.2d 1, 5, n. 1 (1st Cir. 1985)
(discussing “extraordinary circumstances” defense as an
exception to Harlow objective reasonableness standard in
that it requires proof of subjective knowledge and citing
Harlow concurrence for to indicate subjective component
of immunity analysis may not have been abandoned); In
re City of Philadelphia Litig., 49 F.3d 945, 961 (3d Cir.
1995) (quoting Harlow “extraordinary circumstances”

13
language without further analysis); Losch v. Borough of
Parkesburg, Pa., 736 F.2d 903, 909 (3d Cir. 1984)(same);
DiMeglio v. Haines, 45 F.3d 790, 795, n. 1 (4th Cir. 1995)
(citations omitted) (since “extraordinary circumstances”
exception would turn primarily on objective factors,
determination of whether such circumstances exist
is a question of law to be determined by the courts);
Kenyatta v. Moore, 744 F.2d 1179, 1186 (5th Cir. 1984)
(agents created a fact issue as to whether extraordinary
circumstances existed and summary judgment therefore
denied); Preston v. Smith, 750 F.2d 530, 533 (6th Cir. 1984)
(quoting Harlow “extraordinary circumstances” language
without further discussion or analysis); Robinson v. Bibb,
840 F.2d 349, 350 (6th Cir. 1988) (four (4) days between
applicable decision and underlying conduct “might fall
within the exception discussed in Harlow”) (emphasis
supplied); Easter House v. Felder, 852 F.2d 901, 916, n.
15 (7th Cir.), reh’g granted, judgment vacated, 861 F.2d
494 (7th Cir. 1988), and on reh›g, 879 F.2d 1458 (7th Cir.
1989), cert. granted, judgment vacated, 494 U.S. 1014, 110
S. Ct. 1314, 108 L. Ed. 2d 490 (1990) (Harlow “left open the
possibility (…) that an official’s subjective good faith might,
under extraordinary circumstances, immunize behavior
that violated a clear rule of law) (citation and quotations
omitted); Moore v. Marketplace Rest., Inc., 754 F.2d 1336,
1348 (7th Cir. 1985)( situation wherein deputies’ supervisor
made the decision to arrest and instructed them to do
so may constitute “extraordinary circumstances” for
which deputies may be entitled to qualified immunity
for succeeding Fourth Amendment violations during
arrest); Johnson-El v. Schoemehl, 878 F.2d 1043, 1048 (8th
Cir. 1989) (discussing, but not reaching, “extraordinary
circumstances” prong of Harlow analysis because sole
issue to be decided was “clearly established” prong);
Todd v. United States, 849 F.2d 365, 369 (9th Cir. 1988)

14
(quoting Harlow “extraordinary circumstances” language
without further analysis); V-1 Oil Co. v. State of Wyo.,
Dep’t of Envtl. Quality, 902 F.2d 1482, 1489 (10th Cir.
1990) (officer who “conducted a warrantless search on the
same day he was advised by fully informed, high-ranking
government attorneys that a particular statute, which
had not yet been tested in any court, lawfully authorized
that particular search (…) should not be expected to have
known that the search was unconstitutional”); Barnett v.
Hous. Auth. of City of Atlanta, 707 F.2d 1571, 1583 (11th
Cir. 1983), overruled by McKinney v. Pate, 20 F.3d 1550
(11th Cir. 1994) (discussing “extraordinary circumstances”
exception without further analysis and remanded for
further inquiry as to existence of such circumstances).
As the quagmire in the Circuit Courts shows,
assuming arguendo that a Court of Appeals panel
decision would be factually on point to constitute clearly
established law, it remains an important, open question of
federal law whether the fact that the decision is reached
a mere nine (9) days—or indeed, any particular span of
time—prior to the conduct of an officer seeking to benefit
from qualified immunity constitutes an “extraordinary
circumstance” to which immunity nonetheless attaches.
IV. There Are Widely Conflicting Decisions In Circuit
Courts On How Long Before The Underlying
Conduct A Case Must Have Been Decided Such
That An Objectively Reasonable Officer Has Fair
Warning Of The Applicable Clearly Established
Law.
This Court has made clear that, in order to deprive
officers of qualified immunity, “clearly established” law

15
must give an objectively reasonable officer “fair warning”
that his conduct is unconstitutional. Hope v. Pelzer, 536
U.S. 730, 731, 122 S. Ct. 2508, 2511, 153 L. Ed. 2d 666
(2002). And, prior to Harlow, this Court has also held that
“a police officer is not charged with predicting the future
course of constitutional law.” Pierson v. Ray, 386 U.S. 547,
557, 87 S. Ct. 1213, 1219, 18 L. Ed. 2d 288 (1967). Further,
“[a]s a matter of public policy, qualified immunity provides
ample protection to all but the plainly incompetent or
those who knowingly violate the law.” Malley v. Briggs,
475 U.S. 335, 335, 106 S. Ct. 1092, 1093, 89 L. Ed. 2d 271
(1986) (emphasis supplied).
In the absence of any Supreme Court precedent
addressing whether the recentness of a decision or the fact
that the decision proceeds from a panel short of a Court
of Appeals en banc is germane to the qualified immunity
analysis, the Courts of Appeals have floundered in great
confusion on the issue of what, exactly, constitutes fair
warning in terms of how long a putatively binding judicial
decision has been in existence.
In Lintz v. Skipski, a three-judge panel of the Sixth
Circuit held that a period of four (4) months (some 120 days)
was sufficient for a state social worker to have learned of a
new panel decision establishing that due process extended
the right to be free from the infliction of unnecessary
harm to children in state-regulated foster homes. Lintz v.
Skipski, 25 F.3d 304, 306 (6th Cir. 1994). The Sixth Circuit
panel noted that “officials must have some time to adjust
to and learn about judge-made law as it evolves[,]” and
that “[a] court should apply a rule of reason in each case
with respect to compliance with new decisions. As with
other similar timing problems—for example in equitable

16
tolling and laches cases—the question is one of fairness
in light of all the facts.” Id.
In Arebaugh v. Dalton, the State of North Carolina
requested a transfer of a Virginia prisoner to North
Carolina on grounds that the prisoner had briefly been in
the hands of North Carolina authorities, in order to try him
on criminal charges there. Arebaugh v. Dalton, 730 F.2d
970, 971 (4th Cir. 1984). The transfer occurred over the
prisoner’s repeated demands for an extradition hearing,
which did not take place prior to transfer. Id. Twelve (12)
days prior to the transfer, this Court handed down its
opinions in Cuyler v. Adams, 449 US. 433, 101 S.Ct. 703, 66
L.Ed.2d 641 (6-3, 1981), which established the right under
federal law of a prisoner to obtain a preliminary hearing
prior to a transfer pursuant to an interstate agreement on
detainers. Id. at 972. The Fourth Circuit panel held that
it was “not unreasonable” for officials to be aware of the
Cuyler opinion decided some twelve (12) days earlier, at
the very least at the level of the Virginia Attorney General
who had an obligation to stay current on developments in
the law. Id. But the panel qualified this holding by citing to
other, older decisions from both other Circuits and district
courts, and noted that the officials had a “direct interest”
to have learned of the Cuyler opinion by the nature of the
issues presented therein. Id. at 973 (“Twelve days may well
turn out to have been sufficient time for someone with a
direct interest to have learned of, read and digested the
Cuyler v. Adams holding.”).
In Robinson v. Bibb, a police officer fatally shot a
suspect fleeing the scene of a felony after the suspect
disregarded the officer’s warning to stop. Robinson v.
Bibb, 840 F.2d 349, 350 (6th Cir. 1988). Four days prior,

17
this court decided Tennessee v. Garner, 471 U.S. 1, 105
S.Ct. 1694, 85 L.E.2d 1 (1985). The officer in Robinson did
not dispute that Garner constituted clearly established
law that a fleeing suspect had the right not to be shot
under these circumstances. Robinson, 840 F.2d at 350.
Rather, he made—in the Sixth Circuit panel’s words—a
“convincing argument” that it was not unreasonable for
him not to know of the Garner decision a mere four (4)
days after it was handed down. Id. The panel stated that
“[a]bsent a showing that the average police officer would
know of such a Supreme Court pronouncement within such
a period of a few days[,]” the officer’s claim to immunity
“might fall within the [extraordinary circumstances]
exception discussed in Harlow.” Id. However, the Sixth
Circuit panel did not decide this issue, as it ultimately
held that a two-year-old case from the Sixth Circuit itself
constituted clearly established law. Id. at 351.
In Garcia by Garcia v. Miera, New Mexico school
officials administered a paddling to a nine-year-old child,
whose parents asserted substantive due process claims.
Garcia by Garcia v. Miera, 817 F.2d 650, 652 (10th Cir. 1987).
The officials asserted qualified immunity on the basis that
the law governing whether excess corporal punishment
can give rise to a substantive due process claim was not
clearly established at the time. Id. In a footnote, the Tenth
Circuit panel addressed the defendants’ contention that
a controlling authority, Milonas v. Williams, 692 F.2d
931 (10th Cir. 1982), cert. denied, 460 U.S. 1069, 103 S.Ct.
1524, 75 L.E.2d 947 (1983), where certiorari was denied
some five (5) months prior to the incident, was sufficient
to put school officials on notice that their conduct would
constitute a violation of the student’s rights. Id. at 657, n.
10. In so doing, the panel noted that the Milonas decision,

18
in a bound volume of the Federal Reporter 2d, appeared
in the New Mexico Supreme Court’s law library, which
implied that advance sheets were received several months
earlier; and “[t]he publication of advance sheets, as well
as the availability of the decision much earlier by way of
various legal and professional reporting services available
to school officials and their legal advisors, were sufficient
to give defendants notice.” Id.
In Affiliated Capital Corp. v. City of Houston, the
Mayor and City Council of Houston were sued for violation
of the Sherman Antitrust Act following a conspiracy
to grant an anticompetitive cable television franchise.
Affiliated Capital Corp. v. City of Houston, 735 F.2d 1555,
1559 (5th Cir. 1984), abrogated by City of Columbia v.
Omni Outdoor Advert., Inc., 499 U.S. 365, 111 S. Ct. 1344,
113 L. Ed. 2d 382 (1991). On appeal, the Fifth Circuit
en banc held that the Mayor of Houston was entitled to
qualified immunity because “at the time the franchises
were granted it was unclear whether or not an antitrust
violation occurred under the rule of reason when a city let
franchises in an uncompetitive manner(,)” and that “[t]he
cases indicating liability, decided as or shortly before the
franchise process occurred, were breaking new ground
and were not clearly established.” Id. at 1569. This holding
followed discussions of multiple recent Fifth Circuit cases,
including a case decided in July 1978, some 4-5 months
prior to the award of the franchise, thus implying that
4-5 months is insufficient time for an official to have fair
warning of applicable law insofar as the decision addresses
a novel issue or declares a new rule of law. Id.
In Schlothauer v. Robinson, in 1979, law enforcement
officers arrested the plaintiff in his home without a

19
warrant after receiving a complaint that he had abducted
and raped a woman, and the plaintiff asserted Fourth
Amendment claims. Schlothauer v. Robinson, 757 F.2d
196, 197 (8th Cir. 1985). Eleven (11) days prior to the
arrest, a three-judge panel of the Eighth Circuit decided
U.S. v. Houle, 603 F.2d 1297, 1300 (8th Cir. 1979), which
established that a warrantless arrest of a suspect in his
home, in the absence of exigent circumstances, violated
the Fourth Amendment. Id. But rather than finding that
the officers were entitled to qualified immunity on grounds
that they could not be charged with notice of the Houle
decision due to its recentness, the panel held that, since
this Court had not decided the issue at the time, the law
was not “clearly established” at the time of the arrest.
Id. at 197-198.
In Bryan v. United States, a Third Circuit panel
soundly rejected the notion that effectively brand-new
decisions can constitute “clearly established” law of
which an officer should be aware, such that the officer
would be deprived of qualified immunity. In that case,
United States Customs and Border Protections officers
searched the cabins of three travelers on a cruise, for
which the travelers asserted claims under Bivens, 403
U.S. 388, 91 S.Ct. 1999, 29 L.E.2d 619 (1971) for violation
of their Fourth Amendment rights. Bryan v. United
States, 913 F.3d 356, 358 (3d Cir. 2019). A mere two (2)
days prior, another three judge panel of the Third Circuit
ruled for the first time in United States v. Whitted, 541
F.3d 480 (2008) on the constitutional propriety of border
searches in the same context as in Bryan—and in fact,
involving searches of cabins on board the very same
ship. Id. at 361-62. Whitted established, for the first time
in the Third Circuit, that because of a passenger’s high

20
expectation of privacy and the level of intrusiveness of
such a search, the search of a cruise ship cabin at the
border constitutes a “non-routine” search and requires
reasonable suspicion. Id. at 362, citing Whitted, 541 F.3d
at 489. In relevant part, the Bryan panel held that “it is
beyond belief that within two days the government could
determine what was ‘reasonable suspicion’ and what new
policy was required to conform to the ruling, much less
communicate that new policy to the [customs] officers.
We can only conclude that as of [the date of the search],
it was not clearly established… that a search of a cruise
ship cabin at the border had to be supported by reasonable
suspicion.” Id. at 363.
In Doby v. Hickerson, discussed further below, an
Eighth Circuit panel affirmed the District Court’s denial
of qualified immunity to a corrections psychiatrist on
grounds that, although the dispositive authority—a
Supreme Court decision—had been decided only twentytwo (22) days before the underlying incident, this authority
nevertheless constituted “clearly established” law because
the psychiatrist was, in fact, aware of the development.
120 F.3d 111, 114 (8th Cir. 1997). In so doing, however, the
panel noted with approval the District Court’s conclusion
that the defendant “should not be imputed with immediate
knowledge of [the Supreme Court decision].” Id.
It is clear from the Circuit Court decisions postHarlow that there is mass confusion in the Circuit Courts
nationwide as to how long an appellate decision must be in
existence before it can give an officer “fair warning” that
his conduct is unconstitutional. This petition presents the
Supreme Court with the opportunity—assuming that a
given decision is otherwise on point and dispositive—to

21
clarify how much time must pass before an objectively
reasonable officer can be charged with notice of the new
development in law such that he would not be entitled to
qualified immunity; and therefore, certiorari should be
granted.
V. The Eleventh Circuit Panel’s Decision Conflicts
with A Decision Of The Eighth Circuit On The
Question Of Whether A Public Employee’s
subjective Knowledge Of Developments Of Law Is
A Factor In Determining Qualified Immunity.
More than ten years prior to the decision of the Eleventh
Circuit panel at issue here, another three-judge panel—
this, of the Eighth Circuit—decided Doby v. Hickerson,
120 F.3d 111 (8th Cir. 1997). The Doby panel applied the
qualified immunity analysis established in Harlow, 467
U.S. 800 (1982), via the definition of “clearly established”
law announced by this Court in Anderson v. Creighton,
483 U.S. 635, 640, 107 S.Ct. 3024, 3039, 97 L.Ed.2d 523
(1987)—to wit, that in order to be “clearly established,
the contours of the right must be sufficiently clear that a
reasonable official would understand that what he is doing
violates that right.” Doby, 12 F.3d at 113 (citation and
quotation omitted). In Doby, the defendant, a psychiatrist
employed by a State department of corrections, prescribed
antipsychotic medications to the plaintiff Doby, an inmate,
and directed that they be administered involuntarily after
Doby began demonstrating bizarre behavior. Id. at 112.
Doby experienced side effects and brought suit, asserting
claims under the Due Process Clause. Id. at 113.
Twenty-two (22) days after Hickerson gave the order,
this Court decided Washington v. Harper, 494 U.S. 210,

22
221-22, 110 S.Ct. 1028, 1036, 108 L.Ed.2d 178 (1990). Doby,
120 F.3d at 113. Harper established specific procedural
protections as minimal constitutional requirements
for satisfying procedural due process when a state
involuntarily administers antipsychotics to an inmate.
Harper, 494 U.S. at 233, 235. Post-Harper, the treatment
of the inmate as ordered by Hickerson continued. The
Doby panel held that Hickerson was entitled to qualified
immunity for his order and all administrations of
medication prior to the date of the decision in Harper, but
was not entitled to immunity for the continued treatment
after Harper. Doby, 120 F.3d at 113. Central to the Eighth
Circuit panel’s analysis was evidence that the state
attorney general’s officer had in fact advised Hickerson’s
unit that Harper was pending and that the unit revised its
policy on forced medication in anticipation of the Supreme
Court’s ruling, coupled with a finding that Hickerson was
made aware of the new policy but failed to follow it. Id.
The Eighth Circuit panel thereby implicitly recognized a
subjective component of the qualified immunity analysis
left open by Harlow—the officer’s own awareness of the
change in clearly established law.
In contrast, the Eleventh Circuit panel’s decision
in this matter, left undisturbed by the Court en banc,
completely ignored the Harlow subjective knowledge
component. Indeed, the Eleventh Circuit panel engaged
in very little analysis at all, instead declaring ipse dixit
that Moore constituted “clearly established” law and that a
reasonable officer must be held to knowledge of the same.
The panel’s decision reads, in relevant part, as follows:
“In Moore, decided on October 15, 2015, we
held that “an officer may not conduct a Terry-

23
like stop in the home in the absence of exigent
circumstances,” consent, or a warrant. Id. at
1047, 1054. Thus, binding precedent clearly
established, at the time of the encounter on
October 24, 2015, that a seizure or entry
within the home without a warrant or exigent
circumstances violates the Fourth Amendment’s
prohibition on unreasonable searches and
seizures. And the parameters of the exigentcircumstances doctrine were well-established
before then, including, as relevant here, that
circumstances do not qualify as exigent unless
“the police reasonably believe an emergency
exists which calls for an immediate response
to protect citizens from imminent danger.” …
Here, no reasonable officer could believe that
he or she “faced an emergency that justified
acting without a warrant.” … Based on the
factual allegations in the complaint, which we
must accept as true, this was not a situation
where it would be “difficult for an officer to
determine how the relevant legal doctrine”—
here exigent circumstances—would apply.
… Accordingly, qualified immunity is not
appropriate at this stage.”
App.19-20 (citations omitted) (emphasis supplied).
The Eleventh Circuit panel therefore implicitly
applied a strictly objective test, thereby abrogating the
Harlow good faith defense and also creating conflict with
the Eighth Circuit panel’s decision in Doby which turned,
to the contrary, on an analysis of subjective knowledge.

24
Certiorari should be granted in order to resolve this
conflict between the Circuits.
VI. The Eleventh Circuit Panel Decided An Important
Federal Question In Direct Conflict With Relevant
Decisions Of This Court Because It Applied
A General Principal Of Law To Find “Clearly
Established” Law In Contravention Of This
Court’s Precedent Mandating That A Case Must
Be Sufficiently Factually Similar To Put Public
Employees On Notice That Their Particular Actions
Are Unconstitutional.
Post-Harlow, this Court has time-and-again reversed
and criticized lower courts for doing precisely what
the Eleventh Circuit panel has done: finding “clearly
established law” on the basis of a generally applicable
principal of law, rather than particularized facts analogous
to the underlying conduct at bar, and thereby applying the
wrong analysis for qualified immunity.
In Harlow itself, this Court held that government
officials performing discretionary functions generally
are shielded from liability so long as their conduct “does
not violate clearly established statutory or constitutional
rights” of which a reasonable person should have known,
but did not define the contours of “clear establishment.”
Harlow v. Fitzgerald, 457 U.S. 800, 818, 102 S. Ct. 2727,
2738, 73 L. Ed. 2d 396 (1982) (emphasis supplied).
Then, in Mitchell v. Forsyth, this Court articulated
that the determination hinges upon “whether the legal
norms allegedly violated by the defendant were clearly
established at the time of the challenged actions” or (at

25
the summary judgment stage) “whether the law clearly
proscribed the actions the defendant claims he took.” U.S.
511, 528, 105 S. Ct. 2806, 2816, 86 L. Ed. 2d 411 (1985).
Subsequently, in Anderson v. Creighton, the Court
held that
“[t]he operation of this standard [of objective
legal reasonableness in light of clea rly
established law] … depends substantially
upon the level of generality at which the
relevant ‘legal rule’ is to be identified. For
example, the right to due process of law is
quite clearly established by the Due Process
Clause, and thus there is a sense in which any
action that violates that Clause (no matter how
unclear it may be that the particular action is
a violation) violates a clearly established right.
Much the same could be said of any other
constitutional or statutory violation. But
if the test of ‘clearly established law’ were
to be applied at this level of generality, it
would bear no relationship to the ‘objective
legal reasonableness’ that is the touchstone
of Harlow. Plaintiffs would be able to convert
the rule of qualified immunity that our cases
plainly establish into a rule of virtually
unqualified liability simply by alleging violation
of extremely abstract rights. Harlow would be
transformed from a guarantee of immunity
into a rule of pleading. Such an approach, in
sum, would destroy ‘the balance that our cases
strike between the interests in vindication of
citizens› constitutional rights and in public

26
officials› effective performance of their duties,’
by making it impossible for officials ‘reasonably
[to] anticipate when their conduct may give rise
to liability for damages.’ … It should not be
surprising, therefore, that our cases establish
that the right the official is alleged to have
violated must have been ‘clearly established’
in a more particularized, and hence more
relevant, sense: The contours of the right must
be sufficiently clear that a reasonable official
would understand that what he is doing violates
that right. This is not to say that an official
action is protected by qualified immunity unless
the very action in question has previously been
held unlawful …; but it is to say that in the light
of pre-existing law the unlawfulness must be
apparent.
Anderson v. Creighton, 483 U.S. 635, 639–40 (1987)
(citations omitted).
In Anderson, the Eighth Circuit held that the
petitioner was not entitled to qualified immunity because
the right of persons to be protected from warrantless
searches of their home in the absence of probable cause
and exigent circumstances, generally defined, was clearly
established. Id. at 638. This Court reversed the Eighth
Circuit, admonishing that
[the Eighth Circuit’s] brief discussion of
qualified immunity consisted of little more than
an assertion that a that a general right Anderson
was alleged to have violated—the right to be
free from warrantless searches of one’s home

27
unless the searching officers have probable
cause and there are exigent circumstances—
was clearly established. The Court of Appeals
specifically refused to consider the argument
that it was not clearly established that the
circumstances with which Anderson was
confronted did not constitute probable cause
and exigent circumstances. The previous
discussion should make clear that this refusal
was erroneous. It simply does not follow
immediately from the conclusion that it was
firmly established that warrantless searches
not supported by probable cause and exigent
circumstances violate the Fourth Amendment
that Anderson’s search was objectively legally
unreasonable.
Anderson, 483 U.S. at 640-41 (1987) (bold emphasis
supplied).
There followed a string of decisions from this Court
reiterating the principle articulated in Anderson that the
invocation of an abstract right, itself clearly established,
is not sufficient to deprive a governmental employee of
qualified immunity—the right must be “defined at the
appropriate level of specificity” in order for the violation
to be “clearly established.” Wilson v. Layne, 526 U.S.
603, 615, 119 S. Ct. 1692, 1700, 143 L. Ed. 2d 818 (1999)
(affirming Fourth Circuit’s reversal of District Court’s
denial of summary judgment on qualified immunity
because, at the time of the underlying incident, no court
had held that the conduct in question—namely, media
presence during a police entry into a residence—violated
the Fourth Amendment); see also Saucier v. Katz, 533 U.S.

28
194, 201, 121 S. Ct. 2151, 2156, 150 L. Ed. 2d 272 (2001),
receded from on other grounds by Pearson v. Callahan,
555 U.S. 223, 129 S.Ct. 808 (2009) (reversing denial of
summary judgment on qualified immunity and noting that
“[t]he relevant, dispositive inquiry in determining whether
a right is clearly established is whether it would be clear
to a reasonable officer that his conduct was unlawful in
the situation that he confronted.”) (emphasis supplied);
Brosseau v. Haugen, 543 U.S. 194, 199-201, 125 S. Ct.
596, 599, 160 L. Ed. 2d 583 (2004) (reinstating grant of
summary judgment on qualified immunity because Court
of Appeals “was mistaken” in applying general tests to
Fourth Amendment excessive force claims and holding
that law was not clearly established because precedent
invoked “undoubtedly show that this area [of acceptable
vs. excessive force] is one in which the result depends
very much on the facts of each case” and “[n]one of them
squarely governs the case here.”); Ashcroft v. al-Kidd, 563
U.S. 731, 741, 131 S. Ct. 2074, 2083, 179 L. Ed. 2d 1149
(2011) (reversing Ninth Circuit’s affirmation of District
Court’s denial of motion to dismiss on qualified immunity
grounds and holding that, in determining whether the
underlying conduct violates clearly establish law, “[w]e do
not require a case directly on point, but existing precedent
must have placed the statutory or constitutional question
beyond debate.”); Stanton v. Sims, 571 U.S. 3, 7, 9, 134
S. Ct. 3, 5, 187 L. Ed. 2d 341 (2013) (admonishing Ninth
Circuit for denial of officer’s qualified immunity for entry
into home in hot pursuit of suspect where precedent had
not settled whether said situation violated the Constitution
and where cases relied on were not factually similar
because they did not involve hot pursuit); White v. Pauly,
137 S. Ct. 548, 552, 196 L. Ed. 2d 463 (2017) (Tenth Circuit
“misunderstood the ‘clearly established’ analysis” because

29
“[i]t failed to identify a case where an officer acting under
similar circumstances (…) was held to have violated the
Fourth Amendment.”).
In this matter, the Eleventh Circuit panel did precisely
what this Court, in the wealth of precedent above, has
instructed lower courts not to do: it applied a general
principal of law to deny an officer qualified immunity,
instead of analyzing previous case law for factually similar
circumstances that would put an officer on notice that
his conduct violated a clearly established constitutional
right. The “binding precedent clearly established,” as the
panel called it, was nothing more than the generalized
proposition articulated in Moore that “an officer may not
conduct a Terry-like stop in the home in the absence of
exigent circumstances, consent, or a warrant.”1 From this,
the panel held that the Petitioners were not entitled to
qualified immunity at the motion to dismiss stage, thereby
stripping them of that immunity despite failing—exactly
as the Tenth Circuit failed in White—to identify a single
factually similar case, whether Moore itself or any other.
But, simply put, the nonviolent, nonthreatening
exchange in Moore could not possibly have alerted an
objectively reasonable officer that his actions in this highly
tense and dangerous situation would have violated the
constitutional rights of the suspect. It was blatant error
to hold that Moore, a factually distinct case, constituted
“clearly established” law and that it did so for a general
constitutional proposition, in direct conflict with this
Court’s decisions requiring examination of particularized
circumstances of the case in light of previously developed
1. App.18-19.

30
case law. This Court should grant certiorari and clarify
that the Circuit Courts must not continue to commit the
Eleventh Circuit’s error.
VII. Whether A Factually Distinct Panel Decision
Decided Only Nine (9) Days Before A Public
Employee’s Conduct Can Strip The Employee Of
Qualified Immunity Should Be Decided By This
Court, Because The Eleventh Circuit Panel’s
Decision Chills Public Service By Law Enforcement
By Raising The Specter of Surprise Liability.
In Harlow, this Court recognized the severe chilling
effect on law enforcement procedures and services
posed by the threat of unending litigation and liability
in the absence of qualified immunity, stating that “public
officers require this protection to shield them from
undue interference with their duties and from potentially
disabling threats of liability. … [I]t cannot be disputed
seriously that claims frequently run against the innocent
as well as the guilty—at a cost not only to the defendant
officials, but to society as a whole. These social costs
include the expenses of litigation, the diversion of official
energy from pressing public issues, and the deterrence
of able citizens from acceptance of public office. Finally,
there is the danger that fear of being sued will ‘dampen the
ardor of all but the most resolute, or the most irresponsible
[public officials], in the unflinching discharge of their
duties.’ Gregoire v. Biddle, 177 F.2d 579, 581 (CA2 1949),
cert. denied, 339 U.S. 949, 70 S.Ct. 803, 94 L.Ed. 1363
(1950).” Harlow, 457 U.S. 800, 806, 814, 102 S. Ct. 2727,
2736, 73 L. Ed. 2d 396 (1982).
Post-Harlow, the Court has returned to this theme
time and again, cautioning against the paralysis of public

31
services that must inevitably result if officers cannot
reliably predict whether their conduct is constitutional,
particularly in intense situations requiring quick and
decisive action. See, e.g., Mitchell v. Forsyth, 472 U.S. 511,
526, 105 S. Ct. 2806, 2815, 86 L. Ed. 2d 411 (1985), quoting
Harlow, 457 U.S. at 816 (“the ‘consequences’ with which
we were concerned in Harlow are not limited to liability
for money damages; they also include ‘the general costs
of subjecting officials to the risks of trial—distraction
of officials from their governmental duties, inhibition of
discretionary action, and deterrence of able people from
public service.’”); Davis v. Scherer, 468 U.S. 183, 195, 104
S. Ct. 3012, 3019, 82 L. Ed. 2d 139 (1984) (“The qualified
immunity doctrine recognizes that officials can act without
fear of harassing litigation only if they reasonably can
anticipate when their conduct may give rise to liability
for damages and only if unjustified lawsuits are quickly
terminated.”); Atwater v. City of Lago Vista, 532 U.S.
318, 351, 121 S. Ct. 1536, 1556, 149 L. Ed. 2d 549 (2001)
(“[E]ven where personal liability does not ultimately
materialize, the mere specter of liability may inhibit public
officials in the discharge of their duties, ibid., for even
those officers with airtight qualified immunity defenses
are forced to incur the expenses of litigation and to endure
the “diversion of [their] official energy from pressing
public issues. Further, and somewhat perversely, [a]
disincentive to arrest … would be most pronounced in the
very situations in which police officers can least afford to
hesitate: when acting on the spur (and in the heat) of the
moment….” (citations and quotations omitted).
The policy implications of the Eleventh Circuit’s
decision here are dire: if charged with up-to-the-minute
knowledge of case law developments, existing officers will

32
hesitate to assist or respond to dangerous circumstances
where their presence is vital; and prospective officers may
well be deterred from joining law enforcement agencies in
the first place, threatened by the fear of limitless suit and
being taken by surprise by such developments. Further
still, the impact on rural, impoverished, and underserved
communities cannot be understated. According to the
U.S. Department of Justice and a 2015 report from the
Bureau of Justice Statistics, approximately half of law
enforcement departments nationwide field fewer than ten
(10) officers, and approximately 70 percent of them serve
communities of fewer than ten thousand (10,000) people. 2
While a large, well-funded metropolitan law enforcement
agency might have the resources to fund a legal staff
to provide constant updates and training to its officers
concerning recent and current developments in judicial
decisions, it is inconceivable that a rural agency would be
able to do so. Thus, the Eleventh Circuit panel’s decision
here, and its implications, threatens to result in further
underservice by law enforcement to those communities
who need it most—those small, rural communities which
are already underserved. The need to settle the questions
presented herein is clear, and certiorari should be granted.
Conclusion
Certiorari should be granted because this Petition
presents important and undecided questions of law
concerning whether (1) a panel decision issued only nine (9)
days before a government officer’s actions can constitute
2. Faye Elkins, Concerns of Rural Law Enforcement: What
We Heard from the Field, 12 Dispatch 8 (Sep. 2019), https://cops.
usdoj.gov/html/dispatch/09-2019/rural_le.html#2.

33
clearly established law that would deprive him of qualified
immunity and (2) whether the recentness of such a
decision constitutes extraordinary circumstances such
that an officer would not have fair warning of the same;
because the Eleventh Circuit panel has clearly erred in
the qualified immunity analysis articulated by this court;
because there is great confusion among the Circuit Courts
on the questions presented herein; and because, should
the Eleventh Circuit panel’s decision stand, government
itself stands to be paralyzed by its officers’ fear of constant
litigation and surprise denials of qualified immunity.
Respectfully submitted, this 27th day of January, 2020.
Russell A. Britt
Counsel of Record
Phillip E. Friduss
Jacob O’Neal
Hall Booth Smith, P.C.
191 Peachtree Street, N.E., Suite 2900
Atlanta, GA 30303
(404) 954-5000
rbritt@hallboothsmith.com
Counsel for Petitioners

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED JULY 16, 2019
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-14512
Non-Argument Calendar
JANET TURNER O’KELLEY, INDIVIDUALLY
AND AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF JOHN HARLEY TURNER,
JOHN ALLEN TURNER,
Plaintiffs-Appellants,
v.
SHERIFF DONALD E. CRAIG, SGT. TRAVIS
PALMER CURRAN, A.K.A. TRAVIS LEE PALMER,
DEP. FRANK GARY HOLLOWAY, DEP. KEELIE
KERGER, DEP. BILL HIGDON, DEP TODD
MUSGRAVE, et. al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of Georgia.
D.C. Docket No. 2:17-cv-00215-RWS.
July 16, 2019, Decided
Before MARCUS, ROSENBAUM, and JULIE CARNES,
Circuit Judges.

2a
Appendix A
PER CURIAM:
This case concerns a deadly encounter between John
Harley Turner (“Harley”) and several law-enforcement
officers on the night of October 24, 2015. The officers made
contact with Harley in the course of investigating a 911 call
where a hunter reported that a resident, later determined
to be Harley, had accused some hunters of trespassing on
his land and had threatened them with bodily harm if they
did not leave. Harley spoke with the officers from behind
a closed gate on property he shared with his mother and
her husband. Harley was armed and refused multiple
commands to put the gun down, but he never threatened
the officers or pointed the gun at them. After more than
30 minutes of fruitless negotiation, one of the officers
lured Harley closer to the fence under the guise of inviting
him to talk. As Harley approached, another officer, who
had sneaked over the fence onto Harley’s property, fired
three rounds from a twelve-gauge shotgun filled with
shot-filled beanbags, striking Harley. Harley returned
fired, prompting the other officers to shoot and kill him.
Harley’s mother and father, Janet Turner O’Kelley and
John Allen Turner, respectively (collectively, “Plaintiffs”),
filed suit under 42 U.S.C. § 1983, alleging several claims on
his behalf, including (1) an unlawful-seizure claim against
the officers who were involved in the events that led to
Harley’s death; and (2) a failure-to-train claim against
Donald Craig, the Sheriff of Pickens County. They also
brought a state-law claim for wrongful death. The district
court granted the Defendants’ motion to dismiss, which
invoked the defenses of qualified and official immunity.
Plaintiffs now appeal.

3a
Appendix A
I.
At around 8:30 p.m. on October 24, 2015, a hunter
called 911 to report that he and other hunters had been
threatened by a resident while coon hunting.1 The hunter
claimed that a person on a neighboring property had yelled
at them through the woods, accusing them of trespassing
and threatening them with bodily harm if they did not
leave. After ensuring that the hunter was safe, the 911
operator reported the incident to law enforcement as a
“completed domestic disturbance.”
Pickens County Deputies Bill Higdon, Frank
Holloway, and Keelie Kerger responded to the call. They
spoke with the hunter and then proceeded to the subject
property at 1607 Carver Mill Road, arriving at around
9:00 p.m.
Harley lived at 1607 Carver Mill in a cabin behind the
main house, which was occupied by Harley’s mother, Janet
Turner O’Kelley (“Mrs. O’Kelley”), and her husband,
Stan O’Kelley (“Mr. O’Kelley”). The two residences were
enclosed in a fence with a closed gate that blocked the
driveway.
When the deputies arrived, they spoke with Mr.
O’Kelley outside the closed gate. Mr. O’Kelley informed
1. We present the facts as alleged in Plaintiffs’ complaint,
accepting them as true for purposes of this appeal. See Gates v.
Khokhar, 884 F.3d 1290, 1296 (11th Cir. 2018) (“When ruling on
a motion to dismiss, we accept the facts alleged in the complaint
as true, drawing all reasonable inferences in the plaintiff’s favor.”
(quotation marks and alteration omitted)).

4a
Appendix A
them that the 911 call was about his stepson Harley and
that Harley was armed. The deputies sent Mr. O’Kelley
to a neighbor’s house.
Around this same time, Harvey, shirtless and armed
with a pistol in a chest holster, approached the gate
from the cabin with a flashlight talking loudly about
trespassing. Shouting and with guns raised, the deputies
ordered Harley to put his hands up and his gun down. The
deputies did not immediately identify themselves as lawenforcement officers. Harley replied, “I already put the
gun down,” and asked, “Why are you trying to trespass?”
One of the deputies responded, “We’re not trespassing;
we’re cops.”
Meanwhile, additional law-enforcement officers
arrived on the scene. According to the complaint, State
Troopers Rodney Curtis and Jonathan Salcedo “took
up sniper positions” armed with rifles. Pickens County
Deputies Travis Curran and Todd Musgrave joined the
other deputies armed with shotguns, one of which was
loaded with “less-lethal” beanbag rounds.
Harley began walking back towards his house with his
hands above his head. He held the flashlight in one hand
and the gun in the other. The deputies ordered him to put
the gun down and get on the ground. Harley briefly turned
around and told the officers to just keep trespassers off
his property. He then turned back and continued on his
way, while the deputies, with guns still pointed at him,
ordered him to come back to the fence.

5a
Appendix A
Mrs. O’Kelley arrived at the property at around
9:05 p.m., just over 30 minutes after the 911 call and five
minutes after the first deputies arrived. She saw that
Deputy Curran had a shotgun, and she told the officers
that there should be no shooting and that Harley would
defend himself if they opened fire. The deputies would not
let Mrs. O’Kelley talk to Harley, and they directed her
away from the property.
A tense verbal back-and-forth ensued for approximately
30 minutes. The deputies repeatedly tried to get Harley to
put his gun down. Harley paced back and forth, wearing
his gun in the chest holster, and asserted that he simply
wanted the officers to keep trespassers away from his
property. Harley was distressed and perceived the officers
as threatening him. Several times, he told them to “go
ahead and shoot me.” The deputies repeatedly assured
Harley they would not shoot him.
In the middle of this back-and-forth, at around 9:12
p.m., Harley announced that he was tired and wanted
to go to bed, and that he was going to his cabin to get a
drink of water. While he was away, Deputies Curran and
Higdon, armed with shotguns, crossed the fence into the
property and took cover in order to “try to get a better
position” for a shot on Harley.
Harley returned from his cabin with a flashlight in one
hand and a jug of water in the other. His gun remained in
his chest holster. He began talking to the deputies again,
calling them trespassers and telling them: “I have never
crossed this line, and y’all were the ones have been the

6a
Appendix A
fuckin’ aggressors.” Harley announced that he was tired
and would like to go to bed.
At Deputy Curran’s urging, Deputy Kerger invited
Harley to come talk at the fence for the purpose of drawing
him closer to a spot where Curran could get a good shot.
Kerger told Harley that she did not have her gun, and
she indicated that she could take a statement from him if
he put his gun down. Harley responded, “I already did.”
Kerger pointed out that the gun was still on Harley’s
chest. They continued talking, with Kerger saying that
she would not talk with him until he took his gun out of
its holster and put it on the ground.
About thirty seconds later, an officer stated in a low
voice, “He’s coming back towards the fence.” At that point,
Deputy Curran fired three beanbag rounds from his
shotgun. At least one round struck Harley and knocked
him down. Harley drew his pistol and returned fire. The
other officers opened fire, killing Harley.
II.
In October 2017, Plaintiffs filed a complaint in the
U.S. District Court for the Northern District of Georgia,
alleging two federal claims under 42 U.S.C. § 1983. First,
Plaintiffs alleged an unlawful warrantless seizure of
Harley within the curtilage of his home, in violation of
the Fourth Amendment, by Deputies Curran, Higdon,
Holloway, Kerger, and Musgrave (the “Deputies”), and by
Troopers Curtis and Salcedo (the “Troopers”). Second,
Plaintiffs alleged that Sheriff Craig failed to adequately
train deputies in arrest procedures and the use of force.

7a
Appendix A
They also alleged a state-law wrongful-death claim
against the Deputies.
The defendants filed motions to dismiss, invoking
the federal defense of qualified immunity against the
illegal-seizure claim and the state defense of official
immunity against the wrongful-death claim. As to the
failure-to-train claim, Sheriff Craig maintained that it
failed because there was no underlying constitutional
violation and because Plaintiffs’ allegations were vague
and conclusory. The district court granted the motions to
dismiss, and Plaintiffs now appeal.
III.
We review de novo the grant of a motion to dismiss,
accepting the allegations in the complaint as true and
drawing all reasonable inferences in the plaintiff’s favor.
Paez v. Mulvey, 915 F.3d 1276, 1284 (11th Cir. 2019). “To
withstand a motion to dismiss under Rule 12(b)(6), [Fed.
R. Civ. P.], a complaint must include enough facts to state
a claim to relief that is plausible on its face.” Hunt v.
Aimco Props., L.P., 814 F.3d 1213, 1221 (11th Cir. 2016)
(quotation marks omitted). “A claim has facial plausibility
when the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556
U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009).
IV.
Qualified immunity protects government officials
from individual liability for job-related conduct unless

8a
Appendix A
they violate clearly established law of which a reasonable
person would have known. Keating v. City of Miami,
598 F.3d 753, 762 (11th Cir. 2013). “It serves the purpose
of allowing government officials to carry out their
discretionary duties without the fear of personal liability
or harassing litigation.” Carter v. Butts Cty., 821 F.3d
1310, 1318-19 (11th Cir. 2016) (quotation marks omitted).
Because qualified immunity is a defense not only from
liability, but from suit, the defense may be raised in a
motion to dismiss. Sebastian v. Ortiz, 918 F.3d 1301, 1307
(11th Cir. 2019).
Officials invoking qualified immunity must show
first that they were acting within the scope of their
discretionary authority. Id. There is no dispute that the
Deputies and Troopers were engaged in discretionary
duties on the night of October 24, 2015. Accordingly,
the burden shifted to Plaintiffs to show that qualified
immunity did not apply. See id.
The qualified-immunity inquiry “turns on the objective
legal reasonableness of the action, assessed in light of the
legal rules that were clearly established at the time it was
taken.” Pearson v. Callahan, 555 U.S. 223, 244, 129 S. Ct.
808, 172 L. Ed. 2d 565 (2009) (quotation marks omitted).
“To deny qualified immunity at the motion to dismiss
stage, we must conclude both that the allegations in the
complaint, accepted as true, establish a constitutional
violation and that the constitutional violation was ‘clearly
established.’“ Sebastian, 918 F.3d at 1307 (emphasis in
original). We may address these two prongs in either
order. Pearson, 555 U.S. at 236.

9a
Appendix A
Plaintiffs contend that the Deputies and Troopers
violated clearly established Fourth Amendment law when,
in the absence of a warrant or exigent circumstances, they
seized Harley within the curtilage of his home, trespassed
on his property, and then used force against him that
foreseeably caused his death.
A.
We start by considering whether the defendants
transgressed Harley’s Fourth Amendment rights on the
night of October 24, 2015. Accepting the facts alleged in
the complaint as true, we find that the Deputies did, but
not the Troopers.
“[W]hen it comes to the Fourth Amendment, the
home is first among equals.” Florida v. Jardines, 569
U.S. 1, 6, 133 S. Ct. 1409, 185 L. Ed. 2d 495 (2013). At the
Amendment’s “very core” is the right of an individual
“to retreat into his [or her] own home and there be
free from unreasonable governmental intrusion.” Id.
(quotation marks omitted). This protection extends to
“the area immediately surrounding and associated with
the home”—what courts refer to as the “curtilage”—
which is regarded “as part of the home itself for Fourth
Amendment purposes.” Id. (quotation marks omitted).
Given the special protection afforded the home,
searches and seizures within a home or its curtilage and
without a warrant are presumptively unreasonable. United
States v. Walker, 799 F.3d 1361, 1363 (11th Cir. 2015);
Bashir v. Rockdale Cty., Ga., 445 F.3d 1323, 1327 (11th Cir.

10a
Appendix A
2006). This general rule is “subject only to a few jealously
and carefully drawn exceptions,” which are consent and
exigent circumstances. McClish v. Nugent, 483 F.3d 1231,
1240 (11th Cir. 2007) (quotation marks omitted). Absent
consent or exigent circumstances, probable cause alone
is not enough to validate a warrantless search or arrest.
Bashir, 445 F.3d at 1328. Nor may officers conduct a
warrantless seizure under Terry2 within the home without
consent or exigent circumstances. Moore v. Pederson, 806
F.3d 1036, 1045 (11th Cir. 2015).
A variety of circumstances may give rise to an
exigency sufficient to justify a warrantless entry, including
law enforcement’s need to provide emergency assistance,
engage in “hot pursuit” of a fleeing suspect, or prevent
imminent destruction of evidence. Missouri v. McNeely,
569 U.S. 141, 149, 133 S. Ct. 1552, 185 L. Ed. 2d 696
(2013). Likewise, we have held that “emergency situations
involving endangerment to life fall squarely within
the exigent circumstances exception.” United States v.
Holloway, 290 F.3d 1331, 1337 (11th Cir. 2002). “While
these contexts do not necessarily involve equivalent
dangers, in each a warrantless [entry] is potentially
reasonable because there is compelling need for official
action and no time to secure a warrant.” McNeely, 569
U.S. at 149 (quotation marks omitted); Feliciano v. City
of Miami, 707 F.3d 1244, 1251 (11th Cir. 2013) (“Exigent
circumstances . . . arise when the inevitable delay incident
to obtaining a warrant must give way to an urgent need
for immediate action.” (quotation marks omitted)).
2. Terry v. Ohio, 392 U.S. 1, 88 S. Ct. 1868, 20 L. Ed. 2d 889
(1968) (permitting brief, investigatory seizures based on reasonable
suspicion).

11a
Appendix A
We look to the “totality of the circumstances” to
determine whether officers “faced an emergency that
justified acting without a warrant.” McNeely, 569 U.S. at
149. In other words, we must “evaluate each case of alleged
exigency based on its own facts and circumstances.” Id.
at 150 (quotation marks omitted).
The Deputies and Troopers offer different arguments
in support of the judgment in their favor. The Deputies
concede that Harley was seized within the curtilage of his
home and that Deputies Curran and Hidgon entered the
curtilage without a warrant. But they contend that their
conduct was reasonable because they had probable cause
to arrest, or at least reasonable suspicion to conduct a
Terry stop, and that exigent circumstances validated the
warrantless seizure and entry. Further, they contend
that Curran’s use of beanbag rounds was a reasonable
response to what the deputy viewed as a “potential deadly
encounter.”
For their part, the Troopers maintain that the
allegations in the complaint do not implicate them in any
of the alleged Fourth Amendment violations. They also
dispute that Harley was within the curtilage of his home,
and they contend that their actions—responding with
lethal force once Harley opened fire—were objectively
reasonable under the circumstances.

12a
Appendix A
1.

Troopers

We address the Troopers’ arguments first. Ultimately,
we agree that the complaint does not state a plausible
Fourth Amendment claim against them.
It is well established that § 1983 “requires proof of an
affirmative causal connection between the official’s acts
or omissions and the alleged constitutional deprivation.”
Zatler v. Wainwright, 802 F.2d 397, 401 (11th Cir. 1986).
Such a “causal connection” may be established by showing
that “the official was personally involved in the acts that
resulted in the constitutional deprivation.” Id. “[T]he
inquiry into causation must be a directed one, focusing
on the duties and responsibilities of each of the individual
defendants whose acts or omissions are alleged to have
resulted in a constitutional deprivation.” Williams v.
Bennett, 689 F.2d 1370, 1381 (11th Cir. 1982).
Here, Plaintiffs did not allege sufficient facts, accepted
as true, to show that Troopers Curtis and Salcedo were
personally involved in the acts that resulted in the alleged
constitutional deprivations. Before the fatal shooting,
the Troopers’ participation in the events at 1607 Carver
Mill was limited to taking “sniper positions” with rifles.
Plaintiffs contend that Harley was seized soon after by
various commands, but the complaint indicates that it was
the “the deputies” who “shouted at him to put the gun down
and get on the ground” and then “ordered him to come
back to the fence.” Thus, despite the Troopers’ presence on
the scene, it does not appear from the complaint that they
were personally involved in the acts that allegedly resulted

13a
Appendix A
in Harley’s seizure. Nor did they enter the property or
fire the beanbag rounds that provoked the firefight. While
the Troopers did respond with lethal force once Harley
opened fire, Plaintiffs do not contend that this use of force
was itself unreasonable, nor could we find that it was.
Because the Troopers’ acts or omissions were not alleged
to have resulted in a constitutional deprivation, we affirm
the dismissal of the complaint as to them.
Plaintiffs respond that the Troopers are liable for
failing to intervene and prevent an excessive use of force.
But as the district court noted, “[t]his theory of liability
is not alleged in the Complaint.” For that reason, we
decline to consider whether the Troopers could be held
liable under a failure-to-intervene theory. In any case, the
complaint’s allegations do not establish that the Troopers
had time and were in a position to intervene. See Priester
v. City of Riviera Beach, Fla., 208 F.3d 919, 927 (11th
Cir. 2000). Specifically, we cannot tell from the complaint
whether the Troopers were even aware of Deputy Curran’s
plan to use force to end the encounter.
For these reasons, we affirm the judgment in favor
of the Troopers.
2.

Deputies

But as to the Deputies, we conclude that the complaint
plausibly establishes that they violated Harley’s Fourth
Amendment rights. At the outset, we note that the parties
agree on certain points. Plaintiffs and the Deputies agree
that Harley was seized within the curtilage of his home—

14a
Appendix A
exactly when is not particularly important for the time
being—and that Deputies Curran and Higdon entered
the curtilage. Because the Deputies lacked a warrant, the
parties also agree that the Deputies needed consent or
exigent circumstances. For purpose of this opinion only,
we assume without deciding that the parties are correct
on these matters.
While the parties dispute the existence of probable
cause or reasonable suspicion, we need not address that
issue. Even assuming probable cause to arrest existed,
no exception to the warrant requirement applied on the
facts alleged.
Harley clearly did not consent, and no exigent
circumstances existed here. The Deputies contend, and
the district court concluded, that exigent circumstances
existed because they faced an “emergency situation[]
involving endangerment to life.” Holloway, 290 F.3d at
1337. This exception applies “[w]hen the police reasonably
believe an emergency exists which calls for an immediate
response to protect citizens from imminent danger.” Id.
But no reasonable officer would believe that Harley’s
conduct presented an imminent risk of serious injury to
the Deputies or others. By the time the officers arrived on
the scene, the events that gave rise to the 911 call by the
hunter were complete, the hunters were safely away from
the property, and Harley was in his cabin. There had been
no report of gunshots, only a verbal and conditional threat
of bodily harm against a group of alleged trespassers who
were no longer in the area. “This is not the stuff of which

15a
Appendix A
life- or limb-threatening emergencies that constitute
‘exigent circumstances’ are made.” Moore, 806 F.3d at
1045; cf. Holloway, 290 F.3d at 1338 (“The possibility of
a gunshot victim lying prostrate in the dwelling created
an exigency necessitating immediate search.”).
The lack of exigent circumstances is further
reinforced by the relatively minor nature of the offense.
See Welsh v. Wisconsin, 466 U.S. 740, 753, 104 S. Ct.
2091, 80 L. Ed. 2d 732 (1984) (“[A]n important factor to
be considered when determining whether any exigency
exists is the gravity of the underlying offense for which the
arrest is being made.”). Even if we assume that Harley’s
threat of harm to the hunters constituted a “terroristic
threat” within the meaning of O.C.G.A. § 16-11-37(b)(1),
it appears that it would qualify as only a misdemeanor
offense under the statute. See O.C.G.A. § 16-11-37(d)
(1) (stating that “[a] person convicted of the offense of a
terroristic threat shall be punished as a misdemeanor,”
unless the threat “suggested the death of the threatened
individual”). In these circumstances, according to the
Supreme Court, “application of the exigent-circumstances
exception in the context of a home entry should rarely be
sanctioned.” Welsh, 466 U.S. at 752-53 (noting that most
courts “have refused to permit warrantless home arrests
for nonfelonious crimes”).
Nor did exigent circumstances arise at some point
before Deputy Curran discharged his shotgun from within
the curtilage of Harley’s property. The mere presence
of Harley’s unconcealed gun did not give rise to exigent

16a
Appendix A
circumstances. 3 Cf. United States v. Santa, 236 F.3d 662,
669 (11th Cir. 2000) (“The mere presence of contraband,
however, does not give rise to exigent circumstances.”
(quotation marks omitted)). Our Constitution protects
“the right to keep and bear arms for defense of the home,”
Dist. of Columbia v. Heller, 554 U.S. 570, 632, 128 S. Ct.
2783, 171 L. Ed. 2d 637 (2008), and no facts alleged in the
complaint suggest that the Deputies had reason to believe
that Harley’s possession of the gun was unreasonably
dangerous or even unlawful. Cf. United States v. Burgos,
720 F.2d 1520, 1526 (11th Cir. 1983) (exigent circumstances
permitted warrantless entry of a house “laden with arms
and an unknown number of people inside,” where the
officers had observed the homeowner, who previously
had purchased 192 guns without a proper license, take
possession of “two large boxes filled with arms”).
To be sure, that Harley was distressed, refused to put
down the gun, and was generally uncooperative indicates a
fraught situation. But it does not show an “urgent need for
immediate action.” Feliciano, 707 F.3d at 1251 (emphasis
added). Before Deputy Curran discharged his shotgun,
Harley did not engage in any violent or threatening
behavior. He never pointed the gun at the Deputies or
threatened them with it, and the gun remained in his
chest holster for the vast majority of the encounter. Plus,
3. The cases the Deputies cite as factually analogous both
involved seizures in public places, so they are unpersuasive in
evaluating the situation here, involving a seizure within the curtilage
of a home. See Embody v. Ward, 695 F.3d 577 (6th Cir. 2012) (seizure
in a public park); Deffert v. Moe, 111 F. Supp. 3d 797 (W.D. Mich.
2015) (seizure on a public street).

17a
Appendix A
he repeatedly informed the defendants that he simply
wanted to end the encounter and go to sleep.
Moreover, Harley’s failure to put down the gun,
despite the Deputies’ orders, did not create an exigency.
If exigent circumstances did not exist at the time those
commands were made, as we have concluded, Harley was
not validly seized at the time those commands were made.
And because he was not validly seized, he was not required
to comply with the Deputies’ commands. See Moore, 806
F.3d at 1045 (absent exigent circumstances or a warrant,
a seizure inside the home is not valid and the occupant is
“free to decide not to answer [the officer’s] questions”). So
his failure to comply with the Deputies’ unlawful orders
cannot, in and of itself, give rise to exigent circumstances.
Finally, as to the initial shooting by Deputy Curran,
the allegations in the complaint indicate that Harley
approached the fence as part of a ruse engineered by
Curran—for the purpose of drawing Harley closer to a
spot where Curran could get a good shot—so the deputy’s
decision to fire upon Harley with beanbag rounds cannot
be justified as a split-second response to a perceived
threat.
Considering the totality of the circumstances, it was
not reasonable for the Deputies to believe that they “faced
an emergency that justified acting without a warrant.”
McNeely, 569 U.S. at 149. We therefore conclude Plaintiffs
plausibly established that the Deputies violated Harley’s
constitutional rights when, in the absence of a warrant
or exigent circumstances, they seized him within the

18a
Appendix A
curtilage of his home and entered the curtilage for the
apparent purpose of conducting an arrest. Because this
conduct was unlawful, “there [wa]s no basis for any threat
or any use of force.” Jackson v. Sauls, 206 F.3d 1156, 1171
(11th Cir. 2000); see Zivojinovich v. Barner, 525 F.3d 1059,
1071 (11th Cir. 2008) (“even de minimis force will violate
the Fourth Amendment if the officer is not entitled to
arrest or detain the suspect”). So we vacate the dismissal
of Plaintiffs’ § 1983 unlawful-seizure claim against the
Deputies and remand for further proceedings consistent
with this opinion.4
B.
We also conclude that clearly established law as of
October 24, 2015, put the Deputies on notice that their
conduct was unlawful. “The touchstone of qualified
immunity is notice.” Moore, 806 F.3d at 1046. “The
violation of a constitutional right is clearly established if
a reasonable official would understand that his conduct
violates that right.” Id. at 1046-47.
In Moore, decided on October 15, 2015, we held that
“an officer may not conduct a Terry-like stop in the home
in the absence of exigent circumstances,” consent, or a
warrant. Id. at 1047, 1054. Thus, binding precedent clearly
established, at the time of the encounter on October 24,
2015, that a seizure or entry within the home without a
4. To the extent Plaintiffs contend they established an
excessive-force claim even if exigent circumstances justified the
seizure and entry, this is a “discrete claim,” Jackson, 206 F.3d at
1171, that was not raised below, so we decline to address it on appeal.

19a
Appendix A
warrant or exigent circumstances violates the Fourth
Amendment’s prohibition on unreasonable searches and
seizures. And the parameters of the exigent-circumstances
doctrine were well-established before then, including, as
relevant here, that circumstances do not qualify as exigent
unless “the police reasonably believe an emergency exists
which calls for an immediate response to protect citizens
from imminent danger.” Holloway, 290 F.3d at 1337.
Here, no reasonable officer could believe that he or
she “faced an emergency that justified acting without a
warrant.” McNeely, 569 U.S. at 149. Based on the factual
allegations in the complaint, which we must accept as true,
this was not a situation where it would be “difficult for an
officer to determine how the relevant legal doctrine”—
here exigent circumstances—would apply. Mullenix v.
Luna, 577 U.S. , , 136 S. Ct. 305, 308, 193 L. Ed. 2d 255
(2015) (quotation marks omitted). There are no facts
alleged in the complaint indicating that, notwithstanding
Harley’s possession of a firearm, this was an “emergency
situation[] involving endangerment to life.” Holloway,
290 F.3d at 1337. Accordingly, qualified immunity is not
appropriate at this stage, though the Deputies are free to
raise the defense again in a motion for summary judgment.
V.
As for Plaintiffs’ failure-to-train claim against Sheriff
Craig, we affirm the dismissal of this claim. Supervisors
cannot be held liable under § 1983 on the basis of vicarious
liability. Keith v. DeKalb Cty., Ga., 749 F.3d 1034, 1047
(11th Cir. 2014). “Instead, to hold a supervisor liable a

20a
Appendix A
plaintiff must show that the supervisor either directly
participated in the unconstitutional conduct or that a
causal connection exists between the supervisor’s actions
and the alleged constitutional violation.” Id. at 1047-48.
A plaintiff may prove such a causal connection in several
ways, including when the supervisor’s policy or custom
results in deliberate indifference to constitutional rights.
Id. at 1048.
Plaintiffs contend that Sheriff Craig exhibited
deliberate indifference to his constitutional rights by
failing to institute adequate policies and training to govern
arrest procedures and the use of force by his deputies.
But even if the facts alleged show that the Deputies were
inadequately trained, to establish the Sheriff’s liability
under § 1983, Plaintiffs needed to show that the Sheriff
“knew of a need to train and/or supervise in a particular
area and . . . made a deliberate choice not to take any
action.” See Gold v. City of Miami, 151 F.3d 1346, 135051 (11th Cir. 1998). Plaintiffs have not made this showing.
They simply allege in conclusory fashion that the Sheriff’s
training policies were inadequate. But they do not offer
any specifics of current training or whether the Sheriff
was aware of any similar prior incidents, so we cannot
infer that he was on notice that current training was
inadequate. See id. Accordingly, Plaintiffs’ allegations are
insufficient to sustain a plausible claim against the Sheriff
for failure to train under § 1983.
VI.
Finally, we consider whether the Deputies are entitled
to official immunity under Georgia state law. Under

21a
Appendix A
Georgia’s doctrine of official immunity, state public officials
are not personally liable for discretionary acts performed
within the scope of their official authority unless “they act
with actual malice or with actual intent to cause injury in
the performance of their official functions.” Ga. Const. art.
I, § 2, ¶ IX(d); Murphy v. Bajjani, 282 Ga. 197, 647 S.E.2d
54, 60 (Ga. 2007). Thus, “[t]o overcome official immunity,
the plaintiff must show that the officer had ‘actual malice
or an intent to injure.’“ Smith v. LePage, 834 F.3d 1285,
1297 (11th Cir. 2016) (quoting Cameron v. Lang, 274 Ga.
122, 549 S.E.2d 341, 344 (Ga. 2001)).
Plaintiffs argue that they overcame official immunity
because they alleged an intentional unjustified shooting.
“In a police shooting case, [the official-immunity] analysis
often comes down to whether the officer acted in selfdefense.” Id. If a suspect is shot in self-defense, then there
is “no actual tortious intent to harm him.” Id. (quoting
Kidd v. Coates, 271 Ga. 33, 518 S.E.2d 124, 125 (Ga.
1999)). If, however, the suspect is shot “intentionally and
without justification,” then the officer “acted solely with
the tortious actual intent to cause injury.” Id.
Here, no deadly force against Harley was used until he
opened fire on the Deputies. At that point, the Deputies’
conduct was justified by self-defense and is, accordingly,
shielded from tort liability by the doctrine of official
immunity. See Kidd, 518 S.E.2d at 125-26.
Accepting the facts in the complaint as true, however,
Plaintiffs plausibly alleged that the “less-than-lethal”
shooting that preceded the firefight was intentional and

22a
Appendix A
without justification by self-defense, for similar reasons
as explained above with regard to the § 1983 unlawfulseizure claim. In particular, because Harley appears to
have approached the fence as part of a ruse engineered
by Deputy Curran and assisted by Deputy Kerger, so that
Curran could get a better shot at Harley, the shooting
cannot reasonably be described as defense of self or
others. We therefore vacate and remand for further
proceedings on this claim.
Nevertheless, it appears from the allegations that
only Deputies Curran and Kerger are proper defendants
to this claim. The complaint alleges that they, and no
other deputies, acted in concert to commit the tortious
conduct that foreseeably caused Harley’s death. See, e.g.,
Madden v. Fulton Cty., 102 Ga. App. 19, 115 S.E.2d 406,
409 (Ga. Ct. App. 1960) (“persons acting in concert under
certain situations may be liable for the acts of others”);
Restatement (Second) of Torts § 876 (1979). The fact
that the other deputies were present on the scene and
marginally involved is not enough. See Madden, 115
S.E.2d at 409 (“If the participation is slight, there is no
liability.”). We therefore conclude that the remaining
deputies (Higdon, Holloway, and Musgrave) are entitled
to official immunity for this claim.
VII.
For the foregoing reasons, we vacate the dismissal
of Plaintiffs’ § 1983 unlawful-seizure claim against
the Deputies and the state-law wrongful-death claim
against Deputies Curran and Kerger. We affirm the

23a
Appendix A
dismissal of Plaintiffs’ § 1983 claims against Sheriff
Craig and Troopers Curtis and Salcedo, as well as the
state-law wrongful-death claim against Deputies Higdon,
Holloway, and Musgrave. We remand this case for further
proceedings consistent with this opinion.
VAC AT E D A N D R E M A N DE D I N PA R T ;
AFFIRMED IN PART.

24a
B the UNITED
Appendix B —Appendix
ORDER of
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF GEORGIA, ATLANTA DIVISION,
FILED SEPTEMBER 27, 2018
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
CIVIL ACTION NO. 2:17-CV-00215-RWS
JANET TURNER O’KELLEY, INDIVIDUALLY
AND AS PERSONAL REPRESENTATIVE OF
THE ESTATE OF JOHN HARLEY TURNER;
AND JOHN ALLEN TURNER,
Plaintiffs,
v.
SHERIFF DONALD E. CRAIG, et al.,
Defendants.
September 27, 2018, Decided
September 27, 2018, Filed
ORDER
This case comes before the Court on Defendants
Salcedo and Curtis’ Motion to Dismiss [7] and Pickens

25a
Appendix B
Sheriff’s Office Defendants’1 Motion to Dismiss [21]. After
reviewing the record the Court enters the following order.
Background
This case arises out of a series of events on October
24, 2015, which ultimately led to the shooting death of
John Harley Turner (“Turner”) by Pickens County Sheriff
Deputies and Georgia State Patrol Officers. The following
facts are taken from Plaintiffs’ Complaint [1] and, for
purposes of Defendants’s Motions to Dismiss, are accepted
as true. Cooper v. Pate, 378 U.S. 546, 546, 84 S. Ct. 1733,
12 L. Ed. 2d 1030 (1964).
On October 24, 2015, three Pickens County Sheriff
Deputies, Frank Holloway, Keelie Kerger, and Bill
Higdon, responded to a 911 call for “a completed domestic
disturbance” from Kevin Moss. (Compl., Dkt. [1-1] ¶ 24.)
Moss reported that he and some others had been accused
of trespassing and threatened with bodily harm while
hunting near Carver Mill Road. (Id. ¶ 22.) The deputies
met Moss at the intersection of Carver Mill Road and
Dean Mill Road and then proceeded to 1607 Carver Mill
Road. 2 (Id. ¶ 25.)
1. In addition to Sheriff Donald E. Craig, the Pickens
Sheriff’s Office Defendants are: (1) Sgt. Travis Palmer Curran;
(2) Frank Gary Holloway; (3) Keelie Kerger; (4) Bill Higdon; and
(5) Todd Musgrave.
2. Turner, his mother, Janet Turner O’Kelley, and her
husband, Stan O’Kelley, live at 1607 Carver Mill Road. (Compl.,
Dkt. [1] ¶ 26.) The main house is occupied by Plaintiff Janet Turner

26a
Appendix B
The Deputies arrived at the premises around 9:00
p.m. and met Mr. O’Kelley. (Id.) Mr. O’Kelley informed
the deputies that Turner had threatened the hunters
and that Turner was currently armed. (Id. ¶ 28.) Turner
approached the deputies, armed with a pistol in a chest
holster. (Id. ¶ 29.) The deputies ordered Turner to put
down his gun. (Id. ¶ 30.) Turner asked the deputies why
they were trespassing, and the deputies informed Turner
that they were “cops.” (Id.)
Shortly after, Deputy Todd Musgrave, Deputy Travis
Curran, and two Georgia State Patrol Officers, Jonathan
Salcedo, and Rodney Curtis, arrived at the premises.
(Id. ¶ 31.) Curran had two shotguns, one that was loaded
with beanbag rounds. (Id.) The two Georgia State Patrol
officers were armed with rifles and took “sniper positions.”
(Id.) By this time, Turner had un-holstered his pistol and
was carrying it above his head. (Id. ¶ 32.) The deputies
continued to ask Turner to put down the gun and get on
the ground. (Id.)
Ms. O’Kelley arrived home around 9:05 p.m. (Id.
¶ 34). Ms. O’Kelley told the deputies “that [Turner] would
defend himself if [the deputies] opened fire.” (Id.) The
deputies sent Ms. O’Kelley back down the driveway and
out of the way. (Id.)

O’Kelley and Stan O’Kelley, while Turner lived in a small house
behind the main house. (Id.) Both houses are enclosed by a fence
and gated. (Id.)

27a
Appendix B
For the next half-hour, Turner (who had returned
the pistol to his chest holster) and went back and forth
with the deputies—Turner, on the one hand, wanting
trespassers off his property, and the officers, on the other,
wanting Turner to put the gun down. (Id. ¶ 35.) During
the exchange, Turner did not verbally threaten or point
his gun toward the deputies, nor did he leave the gated
area. (Id. ¶¶ 37-38.) During the exchange, Turner was
“distressed” and challenged the deputies to “go ahead
and shoot [him].” (Id. ¶ 36.) The deputies “repeatedly
reassured [Turner] that they were not going to shoot
him.” (Id.)
Around 9:12 p.m., Curran and Higdon moved to “get
a better position” which involved crossing the fence to
Turner’s residence. (Id. ¶ 39.) The deputies moved into
place while Turner was in his cabin getting water. (Id.
¶ 40.) When Turner came back outside, he told the deputies
again that they were trespassers and that he wanted them
to leave. (Id. ¶ 41.)
Deputy Kerger, who was unarmed, introduced herself
to Turner and asked that he put down his gun and come
speak with her. (Id. ¶ 42.) Turner responded that he did not
have his gun, which was openly in his chest holster. (Id.)
The deputies continued to tell Turner that they would not
speak with him unless he took his gun out of the holster
and put it on the ground. (Id.)
Turner, still armed, started to make his way toward
the fence where Kerger was standing. (Id. ¶ 43.) Deputy
Curran fired three beanbag rounds from his shotgun,

28a
Appendix B
knocking Turner to the ground. (Id.) In response, Turner
drew his pistol and fired. (Id. ¶ 43.) The other deputies
returned fire. (Id. ¶ 44). Turner was shot and died at the
scene. (Id.)
Plaintiffs Janet Turner O’Kelley, individually and
as personal representative of the Estate of John Harley
Turner, and John Allen Turner brought this suit against
Sheriff Craig, Sergeant Curran, Deputy Holloway,
Deputy Kerger, Deputy Higdon, Deputy Musgrave,
Officer Slacedo, and Officer Curtis. Plaintiffs brings her
claims under both federal and state law. In particular,
Plaintiffs allege causes of action under 42 U.S.C. § 1983
for violations of Turner’s constitutional rights under the
Fourth and Fourteenth Amendments (Count I and IV). 3
Plaintiffs further allege a failure to train claim (Count
3. Plaintiffs entitle their first cause of action “Violations of
Fourth and Fourteenth Amendments” without making reference
to 42 U.S.C. § 1983. Because Plaintiffs are seeking monetary
relief, the Court construes Count I as a claim under Section 1983.
See Livadas v. Bradshaw, 512 U.S. 107, 132, 114 S. Ct. 2068, 129
L. Ed. 2d 93 (1994) (describing Section 1983’s role as a vehicle
through which individuals may seek redress when their federally
protected rights have been violated). Furthermore, it is the Fourth
Amendment that prohibits an unreasonable seizure of a person
and governs claims of excessive force “in the course of an arrest,
investigatory stop, or other ‘seizure’ of a free citizen . . . .” Id. at 395.
The arguments in Plaintiffs’ briefs also rely solely on the Fourth
Amendment. Thus, the Court assumes the Complaint’s reference
to the Fourteenth Amendment is limited to its incorporation of the
Fourth Amendment into the states and their local governmental
entities. Accordingly, the Court simply uses the term Fourth
Amendment in this Order.

29a
Appendix B
II). And, Plaintiffs raise claims under Georgia tort law
for wrongful death (Count III). Finally, Plaintiffs assert
that they are entitled to reasonable attorney’s fees (Count
V).4 Defendants now move to dismiss each of those claims
pursuant to Federal Rule of Civil Procedure 12(b)(6). (Mot.
To Dismiss Defs.’ Salcedo and Curtis, Dkt. [7]; Mot. To
Dismiss Compl., Dkt. [21].) The Court sets out the legal
standard governing Defendants’ Motions to Dismiss
before considering the motions on their merits.
Discussion
I.

Legal Standard

Federal Rule of Civil Procedure 8(a)(2) requires that
a pleading contain a “short and plain statement of the
claim showing that the pleader is entitled to relief.” While
this pleading standard does not require “detailed factual
allegations,” “labels and conclusions” or “a formulaic
recitation of the elements of a cause of action will not do.”
Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937, 173 L.
Ed. 2d 868 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
4. Plaintiffs also contend, in one of their response briefs,
that those officers who did not shoot Turner are liable for failing
to intervene. (Pl.’s Br. In Opp. To Pickens Sheriff’s Office Defs.’
Pre-Answer Mots. To Dismiss, Dkt. [22] at 19-20.) This theory of
liability is not alleged in the Complaint, and “[a] plaintiff cannot
amend the complaint by arguments of counsel made in opposition
to a motion to dismiss.” In re Androgel Antitrust Litig. (No.
II), 687 F. Supp. 2d 1371, 1381 (N.D. Ga. 2010) (quoting Kuhn v.
Thompson, 304 F. Supp. 2d 1313, 1321 (M.D. Ala. 2004)). But, for
the reasons laid out in this Order, the Court need not consider the
merits of that argument, at any rate.

30a
Appendix B
U.S. 544, 555, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007)).
To withstand a motion to dismiss, “a complaint must
contain sufficient factual matter, accepted as true, to ‘state
a claim to relief that is plausible on its face.’” Id. (quoting
Twombly, 550 U.S. at 570). A complaint is plausible on its
face when the plaintiff pleads factual content necessary
for the court to draw the reasonable inference that the
defendant is liable for the conduct alleged. Id.
At the motion to dismiss stage, “all well-pleaded
facts are accepted as true, and the reasonable inferences
therefrom are construed in the light most favorable to
the plaintiff.” Bryant v. Avado Brands, Inc., 187 F.3d
1271, 1273 n.1 (11th Cir. 1999). However, the same does
not apply to legal conclusions set forth in the complaint.
Sinaltrainal v. Coca-Cola Co., 578 F.3d 1252, 1260 (11th
Cir. 2009) (citing Iqbal, 556 U.S. at 678). “Threadbare
recitals of the elements of a cause of action, supported by
mere conclusory statements, do not suffice.” Iqbal, 556
U.S. at 678. Furthermore, the court does not “accept as
true a legal conclusion couched as a factual allegation.”
Twombly, 550 U.S. at 555.
II. Analysis
Defendants move to dismiss Plaintiffs’ Complaint on
three grounds. First, Defendants argue that the Pickens
County Sheriff’s Deputies and Georgia State Patrol
Officers are entitled to qualified immunity for claims under
42 U.S.C. § 1983. Second, Defendants argue that Plaintiffs
do not allege sufficient facts to hold Sheriff Craig liable for

31a
Appendix B
failure to train. Finally, Defendants argue that Plaintiffs’
state law claims against the Deputies and Officers are
barred by the doctrine of official immunity. Plaintiffs
oppose Defendants’ motions, arguing that Defendants
are not protected by official or qualified immunity for
the conduct underlying Plaintiffs’ state or federal claims
respectively, and that the Complaint alleges sufficient
facts to make out a plausible failure to train claim. Using
the legal framework set forth above, the Court examines
Plaintiffs’ claims to determine whether the Complaint
states a claim upon which relief may be granted.
A. 	Federal Claims Against the Pickens County
Sheriff’s Deputies and Georgia State Patrol
Officers
“In order to prevail in a civil rights action under
Section 1983, ‘a plaintiff must make a prima facie showing
of two elements: (1) that the act or omission deprived
plaintiff of a right, privilege or immunity secured by the
Constitution or laws of the United States, and (2) that
the act or omission was done by a person acting under
color of law.’” Marshall Cty. Bd. of Educ. v. Marshall Cty.
Gas Dist., 992 F.2d 1171, 1174 (11th Cir. 1993) (quoting
Bannum, Inc. v. City of Ft. Lauderdale, 901 F.2d 989,
996-97 (11th Cir. 1990)).
However, the doctrine of qualified immunity “offers
complete protection for government officials sued in
their individual capacities if their conduct ‘does not
violate clearly established statutory or constitutional
rights of which a reasonable person would have known.’”
Vinyard v. Wilson, 311 F.3d 1340, 1346 (11th Cir. 2002)

32a
Appendix B
(quoting Harlow v. Fitzgerald, 457 U.S. 800, 818, 102
S. Ct. 2727, 73 L. Ed. 2d 396 (1982)). To claim qualified
immunity, a defendant must first show he was performing
a discretionary function. Moreno v. Turner, 572 F. App’x
852, 855 (11th Cir. 2014). “Once discretionary authority
is established, the burden then shifts to the plaintiff to
show that qualified immunity should not apply.” Edwards
v. Shanley, 666 F.3d 1289, 1294 (11th Cir. 2012) (quoting
Lewis v. City of W. Palm Beach, 561 F.3d 1288, 1291
(11th Cir. 2009). A plaintiff demonstrates that qualified
immunity does not apply by showing: “(1) the defendant
violated a constitutional right, and (2) the right was clearly
established at the time of the alleged violation.” Moreno,
572 F. App’x at 855.
As a threshold matter, the Court concludes that
Defendants were acting pursuant to their discretionary
authority when the events at issue occurred. See, e.g.,
Kesinger v. Herrington, 381 F.3d 1243, 1248 (11th Cir.
2004) (officer’s use of deadly force in altercation with
defendant was clearly within the scope of his discretionary
authority); Vinyard v. Wilson, 311 F.3d 1340, 1346 (11th
Cir. 2002) (officer’s arrest after investigating neighbor
complaint was clearly within the scope of his discretionary
authority). Thus, there are two remaining inquiries:
whether Plaintiffs have alleged sufficient facts in the
Complaint to illustrate a violation of a constitutional right
and, if so, whether that right was clearly established at
the time in question.
1. 	Fourth Amendment Violation
Plaintiffs contend that Turner’s Fourth Amendment

33a
Appendix B
rights were infringed based upon trespass and excessive
force. It is a “basic principle of Fourth Amendment law”
that searches and seizures inside a home without a warrant
are presumptively unreasonable.” Bashir v. Rockdale Cty.,
445 F.3d 1323, 1327 (11th Cir. 2006). This freedom from
unreasonable searches and seizures includes “the right
to be free from the use of excessive force in the course
of an investigatory stop, or other ‘seizure’ of the person.”
Kesinger, 381 F.3d at 1248 (citing Graham v. Connor,
490 U.S. 386, 109 S. Ct. 1865, 104 L. Ed. 2d 443 (1989)
and Tennessee v. Garner, 471 U.S. 1, 105 S. Ct. 1694, 85
L. Ed. 2d 1 (1985)).
The test to determine whether a violation of the Fourth
Amendment occurred is an objective one. The Court must
ask whether the Defendants’ conduct was objectively
reasonable in light of the facts and circumstances
confronting them, regardless of any underlying intent
or motive. Id. Each officer’s conduct “must be judged
from the perspective of a reasonable officer on the scene,
rather than with 20/20 vision of hindsight.” Id. Applying
this standard at the motion to dismiss stage, the Court
finds that Plaintiffs have not set forth facts sufficient
to establish that either the fatal shooting or the events
leading up to it were objectively unreasonable under the
circumstances.
Plaintiffs assert that because there was no warrant
authorizing Defendants “to come onto the O’Kelley
property or to seize [Turner] against his will within the
curtilage of his home” the trespass of Deputies Curran
and Higdon and the excessive force used by all Defendants

34a
Appendix B
violated Turner’s Fourth A mendment freedoms. 5
(Compl., Dkt. [1] ¶ 46.) Plaintiffs further allege that no
legal exception applies to the lack of warrant. (Id. ¶ 48.)
While it is undisputed that the Deputies did not have a
warrant prior to the seizure, even a warrantless arrest
in a home is permitted if the officer “had probable cause
to make the arrest and either consent to enter or exigent
circumstances demanding that the officer enter the home
without a warrant.” Bashir, 445 F.3d at 1328.
a. 	Probable Cause
“ P robable c ause e x i st s when t he fa c t s a nd
circumstances within the officer’s knowledge, of which
he or she has reasonably trustworthy information, would
cause a prudent person to believe, under the circumstances,
that the suspect has committed, is committing, or is about
to commit an offense.’” Kinzy v. Warren, 633 F. App’x
705, 707 (11th Cir. 2016) (internal quotations omitted).
For an officer to be shielded by qualified immunity, the
officer does not need to have actual probable cause but
rather arguable probable cause. Id. “Arguable probable
cause is present where reasonable officers in the same
circumstances and possessing the same knowledge as
the defendant could have believed that probable cause
existed.” Id.
5. As the question of whether the premises surrounding the
home constitutes curtilage is a question of fact, at this stage in the
litigation it will be taken as true that Turner was seized within
the curtilage of his home. See United States v. Berrong, 712 F.2d
1370, 1375 (11th Cir. 1983).

35a
Appendix B
Defendants claim that there was arguable probable
cause for both the trespass as well as the use of excessive
force. Plaintiffs dispute this position for two reasons: first,
that the facts alleged do not satisfy Georgia’s terroristic
threat statute, and second, that Turner’s non-cooperation
with the Deputies did not create probable cause for the
seizure. The Court disagrees and finds that Defendants’
conduct was supported by arguable probable cause.
As for Georgia’s terroristic threat statute, that
law, in relevant part, makes it a crime to threaten to
“[c]ommit any crime of violence[.]” O.C.G.A. § 16-11-37(b)
(1)(A). Defendants, here, were responding to a 911 call
in which the caller specifically referenced a potential
threat of bodily harm. (Compl., Dkt. [1-1] ¶ 22 (describing
a 911 call in which a hunter told the operator that “a
person on a neighboring property had yelled at [him and
his companions] through the woods, accusing them of
trespassing and threatening them with bodily harm if
they did not leave”); id ¶ 24 (911 operator reported the
call to Pickens County Sheriff’s deputies and dispatched
them to the scene); id. ¶ 25 (Deputies spoke to the caller
before proceeding to Plaintiffs’ residence)); see also Poole
v. State, 326 Ga. App. 243, 756 S.E.2d 322, 327 (Ga. Ct.
App. 2014) (“[T]he essential elements of terroristic threats
and acts are: (1) a threat to commit any crime of violence
(2) with the purpose of terrorizing another.”). An officer
is not required to prove every element of a crime prior
to making an arrest, as this would “transform arresting
officers into prosecutors.” Lee v. Ferraro, 284 F.3d 1188,
1195 (11th Cir. 2002) (quoting Scarbrough v. Myles, 245
F.3d 1299, 1303 (11th Cir. 2001)). Thus, based on the

36a
Appendix B
emergency phone call, Defendants had arguable probable
cause to believe Turner violated the terroristic threat
statute.
Likewise, Defendants had arguable probable cause
to seize Turner based on his failure to cooperate and
the attenuating circumstances. Indeed, as Defendants
say, it is not Turner’s non-cooperation alone that
establishes probable cause, but rather the entirety of the
circumstances. Lee, 284 F.3d at 1195 (“For probable cause
to exist, . . . an arrest must be objectively reasonable based
on the totality of the circumstances.”). The Complaint
alleges that Defendants were responding to a 911 call
of a threat of bodily harm. (Compl., Dkt. [1] ¶ 22.) When
Defendants arrived at the premises, Turner was armed
and agitated. (Id. ¶ 29.) Ms. O’Kelley, who arrived shortly
thereafter, informed the officers that Turner would
“defend himself.” (Id. ¶ 34.) When the officers tried to get
Turner to put down the gun, he denied being armed. (Id.
¶ 30.) During the interaction, Turner became distressed,
held the pistol above his head, and even challenged the
officers to shoot him. (Id. ¶¶ 32, 36.) When Turner, who
was still armed, made his way toward an unarmed deputy,
a fellow deputy used non-lethal force to stop him. (Id.
¶ 43.) Only after Turner used deadly force, did Defendants
respond with equal force. (Id. ¶¶ 43-44.) Therefore,
Defendants had arguable probable cause for the seizure.
b. 	Exigent Circumstances
While probable cause itself does not validate a
warrantless home seizure, the seizure may be justified

37a
Appendix B
by exigent circumstances.6 The exigent circumstance
exception permits a warrantless entry “when there is
compelling need for official action and no time to secure
a warrant.” United States v. Holloway, 290 F.3d 1331,
1337 (11th Cir. 2002). Plaintiffs allege there were no
exigent circumstances present to support a warrantless
seizure as the individual who made the call was already
safe. However, the Eleventh Circuit has stated that
“[t]he fact that no victims are found, or that the information
ultimately proves to be false or inaccurate, does not render
the police action any less lawful. . . . As long as the officers
reasonably believe an emergency situation necessitates
their warrantless search, whether through information
provided by a 911 call or otherwise, such actions must be
upheld as constitutional.” Id. “The most urgent emergency
situation excusing police compliance with the warrant
requirement is, of course, the need to protect or preserve
life.” Id. at 1335 (citing Mincey v. Arizona, 437 U.S. 385,
392, 98 S. Ct. 2408, 57 L. Ed. 2d 290 (1978)).
For the reasons previously stated in Part II.A.1.a.,
supra, exigent circumstances existed because it was
reasonable for Defendants to believe that an armed
suspect was inside the subject premises who posed a
potential threat to those in the surrounding area or
the officers. Accordingly, based on the facts alleged in
6. As stated above, consent may also justify a warrantless
home seizure. However, as this case is before the Court on motions
to dismiss, the Court concludes, for the purposes of this Order,
that Defendants did not have consent to enter. The Complaint does
not allege any express consent, and implied consent is insufficient.
See Bashir, 445 F.3d at 1329.

38a
Appendix B
the Complaint, Plaintiffs have not established that a
constitutional right was violated.
2.

Clearly Established

The Court also finds that Plaintiffs have failed to
show the constitutional right was clearly established at
the time of the incident. “The relevant dispositive inquiry
in determining whether a right is clearly established is
whether it would be clear to a reasonable officer that his
conduct was unlawful in the situation he confronted.”
Saucier v. Katz, 533 U.S. 194, 202, 121 S. Ct. 2151, 150 L.
Ed. 2d 272 (2001). There are two methods for determining
whether the constitutional right was clearly established:
(1) look to binding court decisions or (2) “ask whether the
officer’s conduct lies so obviously at the very core of what
the Fourth Amendment prohibits that the unlawfulness
of the conduct was readily apparent to [the officer],
notwithstanding the lack of fact-specific case law on
point.” Moore v. Pederson, 806 F.3d 1036, (11th Cir. 2015)
(internal quotation and citation omitted). However, “[i]f
case law, in factual terms, has not staked out a bright line,
qualified immunity almost always protects the defendant.”
Pickens v. Hollowell, 59 F.3d 1203, 1206 (11th Cir. 1995)
(quoting Post v. City of Fort Lauderdale, 7 F.3d 1552,
1557 (11th Cir. 1993).
Plaintiffs argue that the Moore decision—a case that
“came down . . . nine days before the events at issue”—
clearly established a constitutional violation in the case at
hand. (Pl.’s Br. In Opp. To Pickens Sheriff’s Office Defs.’
Pre-Answer Mots. To Dismiss, Dkt. [22] at 14.) Plaintiffs

39a
Appendix B
assert that the only distinction between Moore and the
present case is that the seizure in Moore occurred while
the plaintiff was inside his dwelling whereas Turner was
outside. (Id.) However, the cases are factually different
and “only factually specific analogous caselaw can clearly
establish a constitutional violation.” Moore, 806 F.3d at
1047. Unlike the case at hand where Defendants responded
to a 911 call made in regard to violent threats, in Moore,
the defendant responded to a neighbor complaint about
an argument that “did not sound violent.” Id. at 1040.
Further, the plaintiff in Moore was not armed during the
seizure, nor did anyone involved appear to be distressed.
Id. Although Moore refused to provide identification when
requested, he complied with the officer’s instructions to
turn around and put his hands behind his back. Id. By
contrast, here, when the officers arrived at the premises,
they were told Turner was armed, and when Turner
appeared he was, in fact, visibly armed. Turner was also
distressed and agitated, and he remained so during the
seizure and refused to comply with the deputies’ repeated
requests to disarm.
While Moore clearly establishes that “an officer may
not conduct a Terry-like stop in the home in the absence
of exigent circumstances,” id. at 1047, it is too dissimilar
from the present case and, therefore, does not clearly
establish a constitutional violation, see Part II.A.1.b.,
supra. Accordingly, Defendants’ Motions to Dismiss as
to Plaintiff’s Section 1983 claims are GRANTED.

40a
Appendix B
B. 	Failure to Train Claim Against Sheriff Craig
It is well settled in this Circuit that “supervisory
officials are not liable under [Section] 1983 for the
unconstitutional acts of their subordinates on the basis of
respondeat superior or vicarious liability.” Keith v. Dekalb
Cty., 749 F.3d 1034, 1047 (11th Cir. 2014) (quoting Cottone
v. Jenne, 326 F.3d 1352, 1360 (11th Cir. 2003). There are
no allegations that Sheriff Craig participated personally
in the immediate events leading up to Turner’s death,
nor that he was present at the time in question. Rather,
Plaintiffs base their Section1983 claim against Sheriff
Craig on a failure to train the Pickens County Sheriff
Deputies.7
To establish liability under Section 1983 based on the
inadequacy of police training, a plaintiff must show that
“the failure to train amounts to deliberate indifference
to the rights of persons with whom the police come into
contact.” Am. Fed’n of Labor & Cong. Of Indus. Orgs. v.
City of Miami, 637 F.3d 1178, 1188 (11th Cir. 2011) (quoting
City of Canton v. Harris, 489 U.S. 378, 388, 109 S. Ct. 1197,
103 L. Ed. 2d 412 (1989)) “Deliberate indifference can be
established in two ways: by showing a widespread pattern
of similar constitutional violations by untrained employees
or by showing that the need for training was so obvious
7. At the outset, the Court notes that although Sheriff
Craig had supervisory authority over the Pickens County Sheriff
Deputies, because Plaintiffs have failed to state a Section 1983
claim against the Deputies, Plaintiffs’ supervisory liability claim
against Sheriff Craig also fails. Nonetheless, the Court proceeds
to address Plaintiffs’ claim on the merits.

41a
Appendix B
that a . . . failure to train . . . employees would result in a
constitutional violation.” Mingo v. City of Mobile, 592 F.
App’x 793, 799-800 (11th Cir. 2014), cert denied, 135 S. Ct.
2895, 192 L. Ed. 2d 926 (2015).
Here, the Complaint does not include sufficient facts
about a history of abuse or widespread problems that
would allow the Court to find that Sheriff Craig was
put on notice regarding the need for more training. The
Complaint contains only conclusory allegations about
Sheriff Craig’s failure to provide adequate training
regarding “arrest procedures and the use of force.”
(Compl., Dkt. [1-1] ¶ 65.) Essentially, Plaintiff has simply
stated a conclusion—that Defendants “failed to institute
adequate policies and training to govern arrest procedures
and the use of force, including the use of deadly force” —
but has not provided sufficient facts from which the Court
could draw that conclusion. Id. The Court cannot accept
these unsupported allegations as a valid basis for a claim.
See Oxford Asset Mgmt. v. Jaharis, 297 F.3d 1182, 118788 (11th Cir. 2002) (stating that “conclusory allegations,
unwarranted deduction of facts[,] or legal conclusions
masquerading as facts will not prevent dismissal”).
Without a basis in specific facts, such assertions are not
sufficient to show that the training was inadequate and
that Sheriff Craig was on notice of any deficiency. 8 As a
8. Of course, there is an “obvious need to train [armed] police
officers on the constitutional limitations on the use of deadly force.”
Gold v. City of Miami, 151 F.3d 1346, 1352 (11th Cir. 1998) (citing
City of Canton, 489 U.S. at 390 n.10). But Plaintiff’s Complaint
still falls short. Mere notice of a need to train or supervise is not
sufficient. Rather, a plaintiff must further establish that a final

42a
Appendix B
result, the Complaint does not include facts from which
the Court could conclude that Sheriff Craig has violated
Section 1983 under a theory of inadequate training.
Defendants’ Motion to Dismiss as to Plaintiffs’ failure to
train claim is, therefore, GRANTED.
C.

State Law Claims Against Pickens Sheriff’s
Office Defendants9

Defendants argue that Plaintiffs’ state law claims
against the Pickens Sheriff’s Office Defendants are barred
by official immunity. The state constitutional provision
governing official immunity provides as follows:
[A]ll officers or employees of the state or its
departments and agencies may be subject to
suit and may be liable for injuries and damages
caused by the negligent performance of, or
negligent failure to perform, their ministerial
functions and may be liable for injuries and
damages if they act with actual malice or with
policymaker “made a deliberate choice not to take any action.” Id.
at 1350. The Complaint does not identify a specific decision made
by Sheriff Craig resulting in a systemic failure to adequately train
and supervise police officers.
9. Though not apparent from the face of the Complaint,
Plaintiffs clarify in an opposition brief that they did not intend
to assert any state law claims against the Georgia State Patrol
Officers, Salcedo and Curtis. (Pls.’ Br. In Opp. To The Georgia
State Patrol Defs.’ Pre-Answer Mots. To Dismiss, Dkt. [23] at 7.)
Accordingly, this section pertains only to the individual Deputies
of Pickens Sheriff’s Office who responded to the incident.

43a
Appendix B
actual intent to cause injury in the performance
of their official functions. Except as provided
in this subparagraph, officers and employees
of the state or its departments and agencies
shall not be subject to suit or liability, and no
judgment shall be entered against them, for
the performance or nonperformance of their
official functions.
Ga. Const. art. I, § 2, ¶ 9(d). The Supreme Court of Georgia
has held that the term “official functions” refers to “any
act performed within the officer’s or employee’s scope of
authority, including both ministerial and discretionary
acts.” Gilbert v. Richardson, 264 Ga. 744, 452 S.E.2d
476, 483 (Ga. 1994). Accordingly, “[u]nder Georgia law, a
public officer is not personally liable for a discretionary
act unless the officer ‘acted with actual malice or actual
intent to cause injury.’” Felio v. Hyatt, 639 F. App’x. 604,
611 (11th Cir. 2016) (quoting Valades v. Uslu, 301 Ga. App.
885, 689 S.E.2d 338, 343 (Ga. Ct. App. 2009), overruled
on other grounds by Harrison v. McAfee, 338 Ga. App.
393, 788 S.E.2d 872 (Ga. Ct. App. 2016)). As a threshold
matter, the Court concludes that Defendants were acting
within their discretionary authority during the events
leading up to Turner’s death. However, Plaintiffs have
failed to show any actual malice or intent to injure on the
part of Defendants under the applicable legal standards.
Both actual malice and actual intent to cause injury
are demanding standards. Felio, 639 F. App’x at 611-12.
“‘[A]ctual malice’ requires a deliberate intention to do
wrong, and denotes express malice or malice in fact.

44a
Appendix B
It does not include willful, wanton, or reckless conduct
or implied malice. Thus, actual malice does not include
conduct exhibiting a reckless disregard for human life.”
Daley v. Clark, 282 Ga. App. 235, 638 S.E.2d 376, 386 (Ga.
Ct. App. 2006).
Defendants first argue that they enjoy official
immunity for any negligence-based claim resulting from
the performance of discretionary acts and reason that
since a claim for wrongful death is based in negligence (as
opposed to malice), Defendants are necessarily entitled
to official immunity. See Hoyt v. Cooks, 672 F.3d 972, 981
(11th Cir. 2012). It is not so simple, however. Even in a
claim like wrongful death, the Supreme Court of Georgia
has stated that if an officer acts solely with actual intent
to cause injury—that is, firing “intentionally and without
justification”—then he or she would not be protected by
official immunity. Kidd v. Coates, 271 Ga. 33, 518 S.E.2d
124, 125 (Ga. 1999); see also Filio, 639 F. App’x at 612.
Nonetheless, the Court agrees with Defendants that
Plaintiffs have not alleged that Defendants’ actions were
performed “with actual malice or with actual intent to
cause injury.” Ga. Const. of 1983, Art. I, Sec. II, Par. IX(d).
While Plaintiffs assert Defendants’ acts were intentional
and without justification (Compl., Dkt. [1] ¶ 69), actual
intent to cause injury requires more than merely the
“intent to do the act purportedly resulting in the claimed
injury. This definition of intent contains aspects of malice,
perhaps a wicked or evil motive.” Felio, 639 F. App’x at 611.

45a
Appendix B
The Complaint alleges that Defendants encountered
Plaintiff after responding to a 911 call regarding a threat
of bodily harm. (Compl., Dkt. [1] ¶ 22.) When Defendants
arrived, Turner was armed and refused to comply with
the deputies’ multiple requests to disarm. (Id. ¶ 29, 30,
32.) When Turner, still armed, made his way towards an
unarmed officer, a deputy fired beanbag rounds to which
Turner responded by firing his pistol. (Id. ¶ 42-43.) Only
then did Defendants apply deadly force by returning fire.
(Id. ¶ 44.). The only inference to “malice” in the Complaint
is a threadbare characterization of Defendants’ conduct
as “unlawful intentional acts.” (Id. ¶ 69.) This conclusory
allegation is insufficient to establish malice, and the
mere intent to return fire is not enough. As a result, the
Complaint does not allege any malice or intent to injure.
Defendants are, therefore, entitled to official immunity;
Defendants’ Motion to Dismiss as to Plaintiffs’ state law
wrongful death claim is GRANTED.
D.

Attorney’s Fees

As none of the Plaintiffs’ substantive causes of action
remain in this litigation, Defendants’ Motions to Dismiss
as to Plaintiff’s claim for attorney’s fees are GRANTED.
Conclusion
For the foregoing reasons, Defendants’ Motions to
Dismiss Plaintiffs’ Complaint [7, 21] are GRANTED.
Plaintiffs’ Complaint is DISMISSED. The Clerk is
DIRECTED to close the case.

46a
Appendix B
SO ORDERED, this 27th day of September, 2018.
/s/ Richard W. Story
RICHARD W. STORY
United States District Judge

47a
Appendix COF THE UNITED
APPENDIX C — OPINION
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED OCTOBER 28, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-14512-EE
JANET TURNER O’KELLEY,
Individually and as Personal Representative
of the Estate of John Harley Turner,
JOHN ALLEN TURNER,
Plaintiffs-Appellants,
versus
SHERIFF DONALD E. CRAIG, SGT. TRAVIS
PALMER CURRAN, a.k.a. Travis Lee Palmer,
DEP. FRANK GARY HOLLOWAY, DEP.
KEELIE KERGER, DEP. BILL HIGDON,
DEP TODD MUSGRAVE, et, al.,
Defendants-Appellees.
Appeal from the United States District Court for the
Northern District of Georgia
ON P E T I T ION( S ) F OR R E H E A R I NG A N D
PETITION(S) FOR REHEARING EN BANC

48a
Appendix C
BEFORE: MARCUS, JORDAN, and ROSENBAUM
Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge
in regular active service on the Court having requested
that the Court be polled on rehearing en banc. (FRAP 35)
The Petition for Panel Rehearing is also denied. (FRAP 40)
ENTERED FOR THE COURT:
/s/					
UNITED STATES CIRCUIT JUDGE
ORD-46

